<html>
<title> - FISCAL YEAR 2009 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST FOR THE DEPARTMENT OF DEFENSE SCIENCE AND TECHNOLOGY: RESPONDING TO THE 21ST CENTURY IRREGULAR WARFARE THREAT ENVIRONMENT</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




                         [H.A.S.C. No. 110-135]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2009

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES SUBCOMMITTEE HEARING

                                   ON

 BUDGET REQUEST FOR THE DEPARTMENT OF DEFENSE SCIENCE AND TECHNOLOGY: 
  RESPONDING TO THE 21ST CENTURY IRREGULAR WARFARE THREAT ENVIRONMENT

                               __________

                              HEARING HELD

                             MARCH 13, 2008

                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                  U.S. GOVERNMENT PRINTING OFFICE
44-996                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                                     

  


           TERRORISM AND UNCONVENTIONAL THREATS SUBCOMMITTEE

                    ADAM SMITH, Washington, Chairman
MIKE McINTYRE, North Carolina        MAC THORNBERRY, Texas
ROBERT ANDREWS, New Jersey           ROBIN HAYES, North Carolina
JIM COOPER, Tennessee                JOHN KLINE, Minnesota
JIM MARSHALL, Georgia                THELMA DRAKE, Virginia
MARK E. UDALL, Colorado              K. MICHAEL CONAWAY, Texas
BRAD ELLSWORTH, Indiana              JIM SAXTON, New Jersey
KIRSTEN E. GILLIBRAND, New York      BILL SHUSTER, Pennsylvania
KATHY CASTOR, Florida
                 Tim McClees, Professional Staff Member
               Jeanette James, Professional Staff Member
                     Andrew Tabler, Staff Assistant










                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2008

                                                                   Page

Hearing:

Thursday, March 13, 2008, Fiscal Year 2009 National Defense 
  Authorization Act--Budget Request for the Department of Defense 
  Science and Technology: Responding to the 21st Century 
  Irregular Warfare Threat Environment...........................     1

Appendix:

Thursday, March 13, 2008.........................................    33
                              ----------                              

                        THURSDAY, MARCH 13, 2008
FISCAL YEAR 2009 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST FOR 
  THE DEPARTMENT OF DEFENSE SCIENCE AND TECHNOLOGY: RESPONDING TO THE 
           21ST CENTURY IRREGULAR WARFARE THREAT ENVIRONMENT
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Chairman, 
  Terrorism, Unconventional Threats and Capabilities Subcommittee     1
Thornberry, Hon. Mac, a Representative from Texas, Ranking 
  Member, Terrorism, Unconventional Threats and Capabilities 
  Subcommittee...................................................     2

                               WITNESSES

Jaggers, Terry J., SES, Deputy Assistant Secretary of the Air 
  Force for Science, Technology and Engineering, Office of the 
  Assistant Secretary for Acquisition............................    11
Killion, Dr. Thomas H., Deputy Assistant Secretary of the Army 
  for Research and Technology/Chief Scientist....................     8
Landay, Rear Adm. William E., III, USN, Chief of Naval Research, 
  Assistant Deputy Commandant of the Marine Corps for Science and 
  Technology Director, Test, Evaluation and Technology 
  Requirements...................................................     9
Schwitters, Dr. Roy, Chair, JASON Steering Committee and 
  Professor of Physics, University of Texas at Austin............     3
Shaffer, Alan R., Principal Deputy, Director, Defense Research 
  and Engineering, Department of Defense.........................     6
Tether, Dr. Anthony J., Director, Defense Advanced Research 
  Projects Agency (DARPA)........................................    13

                                APPENDIX

Prepared Statements:

    Jaggers, Terry J.............................................    99
    Killion, Dr. Thomas H........................................    73
    Landay, Rear Adm. William E., III............................    85
    Schwitters, Dr. Roy..........................................    37
    Shaffer, Alan R..............................................    44
    Tether, Dr. Anthony J........................................   113

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions asked during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Smith....................................................   155
    Mr. Ellsworth................................................   180
 
FISCAL YEAR 2009 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST FOR 
  THE DEPARTMENT OF DEFENSE SCIENCE AND TECHNOLOGY: RESPONDING TO THE 
           21ST CENTURY IRREGULAR WARFARE THREAT ENVIRONMENT

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
        Terrorism, Unconventional Threats and Capabilities 
                                              Subcommittee,
                          Washington, DC, Thursday, March 13, 2008.
    The subcommittee met, pursuant to call, at 10:32 a.m., in 
room 2212, Rayburn House Office Building, Hon. Adam Smith 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM 
  WASHINGTON, CHAIRMAN, TERRORISM, UNCONVENTIONAL THREATS AND 
                   CAPABILITIES SUBCOMMITTEE

    Mr. Smith. Good morning. We will call the committee to 
order. Thank you all for coming.
    I would like to begin, actually, we are having a memorial 
service this morning--or had a memorial service this morning--
for our troops who have died in Iraq and Afghanistan. And at 
10:30 the House is observing a moment of silence, and I would 
like, if we could, to do the same here.
    So we will start by observing a moment of silence.
    Thank you.
    Well, I want to thank our panel for being here this 
morning. I have some brief opening remarks, and then I will 
turn it over to Mr. Thornberry, who will have some brief 
opening remarks.
    Then, actually, just for about five minutes if we could, 
before we get started with our panel, we have Dr. Schwitters, 
from the University of Texas, I believe it is, who has some 
expertise on the specific issue of managing our data. And there 
is a number of different aspects to that, but it is one of the 
more important issues that we are examining here, within the 
science and technology (S&T).
    Specifically, what we are focused on is the bandwidth 
issue, and the problems as information warfare becomes more and 
more an everyday part of every single one of our troops' lives, 
you know, having them be able to access that. How can we manage 
all that is out there, take advantage of the spectrum we have?
    And then the other piece of it, of course, is just 
managing, you know, the data in general, you know, whether you 
are, you know, communicating or simply trying to go into one of 
our systems and get some information out of it. The analogy 
that occurred to me, it is like classic professor's office that 
is now packed to the ceiling with papers and files and folders, 
and it is great to have all that information, but when you need 
one piece of it can you reliably get it?
    And can you reliably get it if you are just an average 
everyday person and not some sort of computer genius? You know, 
basically, can our, you know, vast, you know, military 
establishment take advantage of that data and how can we better 
manage that? So we will do that in general.
    But the main purpose of this morning's hearing is to review 
our Department of Defense's fiscal year 2009 budget request for 
science and technology. We have five witnesses with us here 
today: Dr. Allan Shaffer, who is the Principle Deputy for the 
Director, Defense Research and Engineering; Dr. Dom--I will go 
back to bed and we will just start over----
    [Laughter.]
    He can mispronounce last names, but when you mispronounce 
``Tom,'' you know you are off to a bad start. Dr. Tom Killion, 
who is the Deputy Assistant Secretary of the Army for Research 
and Technology; Rear Admiral Bill Landay, Chief of Naval 
Research; Mr. Terry Jaggers, the Deputy Assistant Secretary of 
the Air Force for Science, Technology, and Engineering; and Dr. 
Tony Tether, the Director of Defense Advanced Research Projects 
Agency (DARPA). We will take you in that order when we get 
started.
    And I will just say a couple quick things. We are pleased 
that the budget request for science and technology represents a 
four percent growth over the fiscal year 2008 request. We have 
enormous needs in this area for some of the reasons I mentioned 
earlier.
    As we move into a more irregular warfare environment that 
involves all kinds of different aspects of technology, it 
becomes more and more important that we stay on the cutting 
edge of that in order to keep up with our adversaries, to track 
what they are doing and also, you know, use those tools 
offensively as well. And there are dozens and dozens of 
different applications of that, which I won't get into--I will 
leave that to our witnesses--but I will say it is, you know, 
one of the most important things that this committee does, is 
try to figure out how to properly fund our investment in 
science and technology to keep us apace with that.
    And I want to thank all of our witnesses in advance for the 
fine work that they are doing in these areas--incredibly 
complicated stuff, complicated stuff that changes moment by 
moment. Keeping up with it is definitely a fulltime job, and I 
think you guys are doing an excellent job of that, and we want 
to help you in any way we can to provide the funds to help you 
do the research and development that needs to be done in these 
areas.
    And with that I will turn it over to my ranking member, Mr. 
Thornberry, for any comments he has.

STATEMENT OF HON. MAC THORNBERRY, A REPRESENTATIVE FROM TEXAS, 
     RANKING MEMBER, TERRORISM, UNCONVENTIONAL THREATS AND 
                   CAPABILITIES SUBCOMMITTEE

    Mr. Thornberry. Thank you, Mr. Chairman. I appreciate, as 
well, the witnesses being here today. This is always a little 
bit of a frustrating hearing for me, when we have it, because 
there are so many witnesses with so many issues, and I have so 
much to learn, and we have such limited time, that it just 
doesn't all seem to fit together.
    It sounds like a cliche to say that today--that tomorrow's 
national security is dependent upon today's science and 
technology, but just because it sounds like a cliche doesn't 
mean it is not true; and I think it is. I also think it is one 
of the easiest areas of the budget to shortchange.
    And I am not very pleased with a four percent increase. As 
you mentioned, the rate of change in the world today is 
extraordinary, and we are facing new domains of warfare; and to 
even hope to keep up with an understanding of what is 
happening, much less to do something about it, requires 
significant investments, I think, in science and technology.
    I know that the organizations represented here are all 
doing great things. I will just say that I am most interested 
in hearing about the problems that you have--the obstacles that 
you have. Everybody has things to brag about, justifiably, but 
I think we are here to help the country, and we have to 
understand the problems and obstacles you face as much as the 
things that are going well for you.
    So with that, I appreciate, again, all the witnesses and 
look forward to their testimony. I yield back.
    Mr. Smith. Thank you.
    And with that, I will call up Dr. Schwitters.
    If you could give us just a brief overview on the data 
collection issues, and we have a statement from you as well, 
which is in the record, which we will review at our leisure, 
but I am interested in any comments you have. And if you 
could--I know it is a big subject--if you could try to keep it 
to five minutes, just because we have a number of people on the 
panel we want to hear from.

    STATEMENT OF DR. ROY SCHWITTERS, CHAIR, JASON STEERING 
  COMMITTEE AND PROFESSOR OF PHYSICS, UNIVERSITY OF TEXAS AT 
                             AUSTIN

    Dr. Schwitters. Thank you, Mr. Chairman, for this 
opportunity. If you had seen my office you probably would have 
had second thoughts about this professor's office----
    Mr. Smith. Well, we are relying on your ability to manage 
data, not papers, so----
    [Laughter.]
    Dr. Schwitters. So I am pleased to discuss with the 
subcommittee today some observations and suggestions for 
managing the prodigious quantities of data produced by new 
sensor systems increasing being planned and deployed in 
national security applications. As you mentioned, I prepared a 
written statement for the record, and I will briefly summarize 
some of that here right now.
    Advances in microelectronics and related fabrication 
technologies enable new kinds of surveillance and monitoring 
systems comprising very large numbers of high-performance 
sensors that offer the promise of truly revolutionary advances 
in tactical intelligence and other pressing needs. I think 
everybody agrees, these are game-changing technologies if we 
can learn how to use them properly.
    The potential of this technology currently is being 
hampered by inadequate analysis tools, which are not suited to 
handling the large quantities of data created by the systems. 
My comments today are drawn from interactions I have had with 
technical experts on new sensor systems and from discussions 
within my colleagues in JASON, a group of research scientists 
and engineers, largely from academia, who study technical 
problems related to national security for various agencies in 
the government.
    In recent years our group has encountered the data glut 
problem in many different forms; for example, from tactical 
approaches to help counter Improvised Explosive Device's (IED) 
aimed at our troops in Iraq to understanding test results from 
prototypes of advanced systems. Several of us deal with these 
very similar issues in our own scientific work.
    For example, now, a single modern aerial reconnaissance 
system may use 100 megapixel cameras operating several frames a 
second. They can generate 10 to 100 terabytes of data. Of 
course, these are--I am always reminded of some of the TV 
science shows where they say ``billions and billions.''
    Terabytes today are the measure of data storage; you can 
buy a one-terabyte disc and it holds a lot of information. 
These systems generate tens to hundreds of terabytes in a day 
of observation.
    I have been told that, for reference, that the--and this 
sounds low to me--but the estimated data rate between the Iraq 
theater and Continental United States (CONUS) is about 270 of 
these units per year, just to set the scale. So a single 
platform flying with modern sensors can easily swamp that kind 
of data rate in a day, with the kind of data we are talking 
about in a year of communications.
    Merely increasing the capacity of our data channels won't 
do the job. In fact, flying modern discs on airplanes to 
analysis centers outside of theater provides pretty good 
bandwidth. But it is the analysis that must keep up with the 
flow of data to avoid pileup.
    And I am reminded of the hilarious TV episode of ``I Love 
Lucy,'' where Lucy and Ethel are at the chocolate factory and 
the chocolate just gets out of control, and you never get back 
in gear. The same kind of thing can happen. Well, discs do the 
same thing; they fall on the floor. And once you get behind, it 
is very difficult to catch up.
    Furthermore, it is the quality of the information that can 
be derived from the new sensors that I think is of paramount 
importance. Photos and videos are no longer sufficient; the 
human mind can't keep up with that kind of information. So we 
need new ways to handle this data, and that is the issue in 
front of us.
    The traditional approaches, for example, of compressing 
data, like video information, actually can harm the analysis 
value of the data; you lose critical information that cannot be 
retrieved unless that data are handled properly. These are 
simply new things that we need to deal with in addition to just 
managing the volume of data.
    Now, I wanted to sort of raise with you the question of, 
you know, who is doing it right? Is anyone handling this 
problem in the science or technical community? And I think--and 
I would like to suggest--that there are good examples from the 
scientific research community for handling large sensor systems 
that actually go back to before the personal computing 
revolution.
    In my statement I describe two current cases that I think 
are relevant to the discussion. One is from astronomy, called 
Panoramic Survey Telescope and Rapid Response System (Pan-
STARRS), which is a large camera that actually has several 
hundred times the capacity of the best quality personal cameras 
you can buy in the stores today. These people are surveying the 
entire visible sky several times a month, and really 
revolutionizing our understanding of the cosmos.
    The other examples I brought in the paper have to do with 
remarkable detectors being completed right now at the CERN 
Large Hadron Collider. These devices can swamp the data rates I 
mentioned earlier within a few seconds of information, and 
their goal is to learn about the smallest particles of matter 
and energy in the universe.
    The sizes and data rates involved in both of these examples 
are actually much greater than those contemplated for tactical 
surveillance systems. They and other examples from the 
scientific community share important attributes, which are 
relevant to national security systems.
    One: Scientific systems must separate very rare events with 
high efficiency from large backgrounds of ordinary activity. It 
is not practical to do this by analysts viewing pictures 
anymore. Automated quantitative forms of image analysis were 
developed to solve this problem.
    Two: The quantity of data is strictly managed to maintain a 
viable analysis pipeline with priorities established by the 
science teams.
    Three: The teams comprise highly integrated groups of 
hardware builders, software developers, and data analysts.
    Now, what I have been describing here is essentially the 
business of systems engineering. And my basic point to the 
committee and to the people I talk to in the Defense Department 
on these questions is that we are facing really a new form of 
system integration here, and we all have to learn how to do 
this together.
    This is not a solved problem. There are not standard 
theories of data fusion or compression that can be applied in a 
more traditional sense of system engineering. We have to learn 
a lot from the data itself.
    So I would advocate that we think and try to, to the extent 
possible, establish integrated teams of users and builders--
analysts, software developers, hardware experts--to understand 
and deal with the management of large data from the very design 
phases of these programs through their actual exploitation. I 
would like to see elevated support and recognition of the 
importance of quantitative data analysis in tactical and 
strategic systems.
    And I would also advocate the commitment of some fraction 
of existing tactical intelligence resources--prototype sensor 
exercises and other opportunities for the entire community to 
learn how to do this tough job. There is a lot of learning 
ahead of us in this.
    At this point, let me just close and recall that in fact, 
the World Wide Web was invented at CERN a generation ago to 
handle the problems of data glut and team communications in 
experimental high energy physics. I believe that more such 
discoveries await us that have the potential to change tactical 
surveillance and other areas of intelligence in ways as 
profound as the World Wide Web.
    Thank you for your attention.
    [The prepared statement of Dr. Schwitters can be found in 
the Appendix on page 37.]
    Mr. Smith. Thank you very much. And as we go forward, if we 
do have questions for you, when we get to the question period 
we will call you forward and deal with that.
    In the meantime, we will turn it over to Mr. Shaffer.

   STATEMENT OF ALAN R. SHAFFER, PRINCIPAL DEPUTY, DIRECTOR, 
    DEFENSE RESEARCH AND ENGINEERING, DEPARTMENT OF DEFENSE

    Mr. Shaffer. Chairman Smith, Congressman Thornberry, 
distinguished members of the subcommittee, thank you for the 
opportunity to appear before you today to describe the 
Department of Defense science and technology program. I ask 
that my written statement be entered into the record.
    I am honored to represent the great accomplishments of the 
thousands of dedicated DOD science and technology 
professionals. Our program has a history of developing 
technologies leading to superior operational capabilities 
employed by the men and women serving in our armed forces 
today. While we continue to deliver superior capabilities, the 
new challenges we face drive us to evolve and expand our 
program.
    The evolution of the national security environment, as 
outlined in the 2006 Quadrennial Defense Review (QDR), coupled 
with the emergence of an agile and global technology base has 
led to changes in the technology landscape for the DOD. 
Congress has recognized this evolving set of challenges and 
supported the DOD science and technology budget requests. For 
that, we thank you.
    In response to the evolving need, the Department has 
experienced a decade-long growth in the science and technology 
budget request, culminating in this year's request of $11.5 
billion, which is among the highest science and technology 
budget requests in history. Perhaps more noteworthy in the 
requested increase for this year is the requested increase for 
basic research, where we have an unprecedented 16 percent real 
growth in our request, to $1.7 billion.
    Secretary Gates shaped this growth to begin to posture us 
for the future. This requested increase reflects the broad 
professional judgment of DOD's leadership, numerous Blue Ribbon 
advisory panels, and prominent industry executives, that our 
current military advantage is based on discoveries from basic 
research, and the belief that the long-running U.S. basic 
research leadership is in decline.
    The growth in our requests are indicative of the continued 
commitment we are making to develop the technologies that 
support the future needs of the men and women in uniform. They 
deserve the best we can give them.
    Over the past two years, we have begun to reshape the 
science and technology investment of the Department to increase 
the so-called ``non-kinetic'' capabilities by initiating or 
expanding programs in a number of nonconventional areas, such 
as biometrics; human, social, culture, behavioral modeling; 
locating, tagging, and tracking; network science; persistent 
surveillance; and cyber protection. While we are currently well 
positioned to support the future force, there is still much to 
accomplish. We much simultaneously develop affordable 
technologies to improve current war-fighting systems, and 
address and integrate emerging technologies developed anywhere.
    I know this committee is interested in how we are 
responding to the new areas of research for irregular warfare. 
I will use the example of handing large data sets generated by 
the explosions of the ubiquitous sensors and expanded 
communication capacity, but the process we use is similar for 
the other areas of irregular warfare.
    The current projections are for the data volume of the 
defense systems to grow by as much as a factor of 1 billion 
over the coming decade, but the defense science and technology 
community is already planning for this growth through a 
multifaceted approach. First, in the fall of 2007, department 
science and technology leadership commissioned a large data 
handling technology focus team.
    This multidisciplinary team used a systems engineering 
approach to baseline the current program, and then recommended 
a way forward. The principle that emerged--and this is 
important--is that DOD large data is not just about the size 
and amount of data, but the time to act. The team recommended 
several actions, from revamped architectures to processing 
closer to the sensor.
    You have already heard from Dr. Schwitters, the chairman of 
the JASONs. We seek outside experts like the JASONs and the 
Defense Science Board (DSB) to provide independent assessments, 
which help shape our future.
    But planning is not enough. We are also expanding the 
infrastructure to support development and testing of new 
algorithms and software to attack the challenge systematically.
    In late 2007, we conducted a large data collection exercise 
called Bluegrass, in and around Lubbock, Texas, to 
simultaneously collected data from multiple types of sensors, 
such as radar, infrared, and other sensors. All this data is 
stored for the Department and Massachusetts Institute of 
Technology (MIT) Lincoln Laboratory, who make it available for 
others to use. We are attacking the challenge in a disciplined 
way.
    Finally, we are investing in a number of large-scale 
demonstration programs to begin to test solutions. For example, 
the Large Data Joint Capability Technology Demonstration (JCTD) 
integrates bigger communication pipes with advanced storage 
systems and advanced data search and visualization software and 
methods. The first military utility assessment of this JCTD 
recently showed we could reduce tasks that used to take hours 
to minutes.
    In closing, Mr. Chairman, I would once again like to thank 
the committee for the support of our science and technology 
program, and seek your continued support of the programs laid 
out in the fiscal year 2009 President's budget request. The 
ongoing emphasis of this Administration is to provide our armed 
forces the best technologies and capabilities we can by 
revitalizing our workforce and expanding the science and 
technology program into new and exciting areas.
    With your help, we will succeed.
    [The prepared statement of Mr. Shaffer can be found in the 
Appendix on page 44.]
    Mr. Smith. Thank you very much.
    Dr. Killion.

STATEMENT OF DR. THOMAS H. KILLION, DEPUTY ASSISTANT SECRETARY 
    OF THE ARMY FOR RESEARCH AND TECHNOLOGY/CHIEF SCIENTIST

    Dr. Killion. Thank you, Chairman Smith, and distinguished 
members of the subcommittee, and hopefully my name won't come 
out like ``dom,'' because I am just recovering from the flu. It 
might actually sound like that unintentionally.
    I do appreciate the opportunity to come before you today 
and discuss the fiscal year 2009 Army science and technology 
program and the significant role that S&T is playing in 
supporting the war-fighter today and in the irregular warfare 
environment. I have submitted a written statement and request 
that it be accepted for the record.
    I want to thank the members of this committee for your 
important role in supporting our soldiers who are at war, and 
for your advocacy of the Army's S&T investments that will 
sustain technological preeminence for our future soldiers. Your 
continued support is vital to our success.
    The Army's S&T investment strategy is shaped to pursue 
technologies that will create unmatched and unprecedented 
capabilities for our future land combat forces. Our S&T program 
is also dynamic and responsive to the needs of today's soldiers 
by exploiting opportunities for near-term solutions to satisfy 
current operational needs.
    We have already provided solutions to a broad range of 
these needs that have been driven by today's irregular warfare 
environment. We have developed and assisted in the fielding of 
passive armor solutions that provide tactical wheeled vehicles 
with ballistic protection that rivals that of combat vehicles; 
we have created improved soldier body armor that protects 
extremities; and we have provided detection and neutralization 
systems against improvised explosive devices.
    Our investments in the quest for precision guidance in 
artillery munitions have enabled the guided multiple launch 
rocket system and the Excalibur precision 155-millimeter 
artillery munition. These capabilities have been decisive 
during today's irregular warfare combat operations, targeting 
the enemy while preventing unnecessary loss of life and harmful 
collateral damage. And, in a less materially-focused area, we 
have developed a training tool called Battlemind, which helps 
to prepare soldiers for the mental rigors of combat and aids 
them in preparing for reintegration when they return home.
    While the focus of our S&T investments is necessarily on 
the near and midterm futures, we have also sustained our 
commitment to basic research that seeks to enable the next 
generation of soldiers with paradigm-shifting capabilities to 
dominate in the full spectrum of battlespace environments. Our 
fiscal year 2009 budget request provides increased funding for 
new research initiatives such as human, social, cultural, and 
behavioral modeling; modeling and analysis of complex multi-
scale networks; and neuroergonomics. They will understand how 
the brain functions in an increasingly complex multitask 
environment, they enable more effective design, and guide 
enhanced training.
    In closing, I would like to thank you, Mr. Chairman, for 
the opportunity to testify before the subcommittee, and for 
your support to the Army's science and technology investments. 
I am proud to represent the efforts of thousands of Army 
scientists and engineers dedicated to providing our soldiers 
with the best possible technology in the shortest possible 
time.
    I will be pleased to answer your questions and those of the 
subcommittee.
    [The prepared statement of Dr. Killion can be found in the 
Appendix on page 73.]
    Mr. Smith. Thank you.
    Admiral Landay.

 STATEMENT OF REAR ADM. WILLIAM E. LANDAY, III, USN, CHIEF OF 
NAVAL RESEARCH, ASSISTANT DEPUTY COMMANDANT OF THE MARINE CORPS 
   FOR SCIENCE AND TECHNOLOGY DIRECTOR, TEST, EVALUATION AND 
                    TECHNOLOGY REQUIREMENTS

    Admiral Landay. Chairman Smith, Congressman Thornberry, 
distinguished members of the subcommittee, it is an honor to 
appear here today to update you on the progress of the science 
and technology efforts within the Department of Navy and to 
discuss how the President's budget request for 2009 supports 
the Navy and the Marine Corps team. I have also submitted a 
written statement and request that it be entered in the record.
    The Naval science and technology challenge is to enable 
future operational concepts that support the vision of the Navy 
and Marine Corps as laid out by the Secretary of the Navy, the 
Chief of Naval Operations, and the Commandant of the Marine 
Corps. They envision a force that is joint, expeditionary, 
distributed, persistent, forward deployed, and capable of 
defeating a competitor in major combat operations or an 
insurgent force in nontraditional operations.
    The President's 2009 budget requests $1.84 billion for an 
S&T portfolio that enables that vision. This reflects a 6 
percent real growth over the President's 2008 budget request 
for the Department of Navy.
    Our Naval science and technology strategic plan identifies 
13 key areas where science and technology investment will have 
high payoff in supporting the Navy and Marine Corps war-
fighting visions and needs. In order to execute this strategy, 
we must continue to address the changing global environment in 
the following ways: We must monitor, assess, and leverage 
emerging science and technology in a global manner. The 
increasingly rapid movement of technology and innovation around 
the world demands that we be able to take advantage of emerging 
ideas in science, regardless of where they originate.
    We must maintain an investment portfolio that is balanced 
between the long-range scientific discovery that comes from 
basic research programs and the nearer-term focused product 
nature of the advanced technology development programs. We must 
focus on delivering value to today's war-fighters while 
ensuring that the well of new and novel technology development 
remains deep and vibrant in support of the next generation of 
sailors and Marines.
    This year, we made a major increase in our investment in 
basic research to strengthen our efforts in emerging areas of 
science, such as autonomy, cyberspace, novel materials, and 
cognitive science, among others.
    Finally, we must continue our efforts to aggressively 
transition the technology and innovative concepts to the war-
fighters. Through our Future Naval Capabilities program, we are 
averaging over 80 percent success in moving science and 
technology developments into the acquisition programs, spanning 
the so-called ``valley of death.''
    There are currently 169 Future Naval Capability products 
underway, in various stages of the three to 5-year development. 
Thirty-six are expected to complete and transition in 2008; an 
additional 20 are planned to complete in 2009. The fiscal year 
2009 budget request continues funding for the remaining 
projects and initiates an additional 28 projects.
    One of the key areas in our strategy is our ability to 
succeed in asymmetric and irregular warfare. Our goal is to 
enable naval forces to preempt or defeat nonconventional 
threats and forces operating within complex physical, cyber, 
and social terrains.
    A key aspect of this strategy is the concept of operational 
adaptation. What can we do to enable our Marines and sailors to 
adapt, influence, shape, and act within the decision cycle of 
an adversary, even if that adversary is what would be 
considered an asymmetric or irregular foe?
    Investments in areas such as imaging through structures; 
rivering operations; image and pattern recognition; societal, 
cultural, and behavioral modeling; biometrics; advanced 
training; and cultural immersion; and battlespace shaping 
through information operations will provide our Marines and 
sailors the ability to outthink and outadapt the enemy. This is 
about making the enemy fear us as the swift, flexible, 
unpredictable asymmetric threat.
    We have a strong emphasis in today's needs, and a long-term 
focus on strengthening the Navy and Marine Corps' ability to 
meet any challenge and to adapt to any security environment. We 
continue to move toward greater integration of capabilities, 
more effective partnership between the research and acquisition 
worlds, and an ever-strengthening ability to achieve shared 
goals with Director, Defense Research & Engineering (DDR&E), 
the Army, Defense Advanced Research Projects Agency (DARPA), 
and Air Force research organizations.
    I believe the state of our S&T investment represents a 
careful stewardship of taxpayer dollars that will make 
significant contributions to our war-fighters as they serve in 
defense of the United States, both today and well into the 
future. I thank you and this committee for your continued 
support of naval science and technology, and am prepared to 
answer any questions.
    Thank you.
    [The prepared statement of Admiral Landay can be found in 
the Appendix on page 85.]
    Mr. Smith. Thank you, Admiral.
    Mr. Jaggers.

STATEMENT OF TERRY J. JAGGERS, SES, DEPUTY ASSISTANT SECRETARY 
   OF THE AIR FORCE FOR SCIENCE, TECHNOLOGY AND ENGINEERING, 
       OFFICE OF THE ASSISTANT SECRETARY FOR ACQUISITION

    Mr. Jaggers. Thank you, Mr. Chairman, members of the 
subcommittee and staff. I am pleased to have the opportunity to 
provide testimony on the fiscal year 2009 Air Force science and 
technology program.
    Last year, I spoke extensively about adapting Air Force S&T 
to the new security environment identified in the Quadrennial 
Defense Review. Recall, I presented our new Air Force S&T 
vision: to anticipate, find, fix, track, target, engage, and 
assess anything, anytime, anywhere as our guide for shifting 
investment emphasis from traditional conventional threats to 
address new unconventional threats, such as terrorism. I am 
proud to say that this budget continues to reflect a shift 
toward this vision and the new security environment.
    Also recall that in 2005 I established five guiding 
principles for the Air Force S&T investment program. These 
principles have provided a valuable framework in constructing 
this budget.
    Developing, recognizing, and ensuring competent, technical, 
intellectual capital exists in the laboratory and elsewhere 
across the Air Force as my number one guiding principle. As 
functional manager for the 15,000 scientists and engineers 
across the Air Force, my commitment to the development of the 
3,300 scientists and engineers in our laboratory is paramount 
to maintaining our national aerospace power.
    My second guiding principle is to ensure a balanced 
portfolio of investments between near, mid, and far-term needs. 
To ensure our far-term needs are met, we allocate no less than 
15 percent of our core portfolio to our 6.1 basic research 
efforts. To meet near-term needs and ensure technology 
solutions are transitioned to both the war-fighter and our 
acquisition programs, we allocate no less than 30 percent of 
the portfolio to 6.3 advanced technology development efforts.
    My third guiding principle is to focus our resources on the 
strategic priorities of the Air Force, the Department of 
Defense, and the nation. To this end, our budget reflects 
significant focused investment changes to which I will speak to 
shortly.
    Honoring commitments is my fourth guiding principle. 
Collaborative research with my colleagues seated next to me, 
academia, industry, and our allies, as well as transition 
agreements with war-fighters and Program Executive Officer's 
(PEOs), were all protected in this budget. The Air Force seeks 
out collaboration and we stand by promises that we make.
    Last, but not least, of my guiding principles is to find 
new and improved ways of transitioning technologies directly to 
the war-fighter in the field or into our acquisition weapon 
systems. I am proud to say that this year we are establishing a 
new Technology Transition Office within Headquarters Air Force. 
I have challenged this office to develop a comprehensive 
strategy for overcoming transition obstacles related to 
laboratory S&T, joint capability technology demonstrations, 
rapid response to urgent war-fighter needs, small business 
innovative research, and partner transitions to the Air Force 
from DARPA and others.
    Our 2009 President's budget request for Air Force S&T is 
approximately $2.1 billion, which includes $1.9 billion in core 
S&T efforts, with the remaining funds supporting devolved 
programs to include high energy laser and the University 
Research Initiative. This year's budget request includes an 
increase of $157 million, or a 6.7 percent real growth, over 
fiscal year 2008 core requests. Even taking the $40 million of 
Man/Tech funding that was moved into S&T this year out of the 
equation, it still represents a very health 4.5 percent real 
growth and reflects the continued strong support of Air Force 
leadership for its S&T program.
    Earlier, I had mentioned some significant focused 
investment changes we made to this year's budget. First, we 
shifted over $20 million across the Future Year Defense Program 
(FYDP) from traditional investment areas to new areas that 
anticipate terrorist actions and tag, track, and locate these 
bad actors anywhere on the globe 24/7.
    Next, we shifted almost $200 million across the FYDP to 
increase focus on game-changing technologies to guarantee 
modernized systems have technological superiority on the 
battlefields of the future and against today's terrorists. 
Specifically, we increased investments in cyberspace to help 
our new cyber command fight through network attacks, in 
defensive counterspace to respond to the national Space events 
of last year, in directed energy for both non-lethal deterrence 
and ultra-precision strike, in revolutionary propulsion such as 
hypersonics and variable-cycle engines as suggested by a 
National Research Council study, and in thermal management 
technologies in response to a Scientific Advisory Board study 
that suggested looming thermal problems for our complex weapon 
systems of the future.
    At the same time, we protected game-changing investments 
that were in the 2008 budget that support the Air Force energy 
strategy to develop alternative fuels, efficient engines, and 
aero-efficient structures, an advanced composite cargo aircraft 
project that provides a capstone to our Composite Aircraft 
initiatives to reduce aging aircraft sustainment issues, and 
sense-and-avoid technologies for unmanned aerial systems to 
operate them in theater or domestic airspace as ubiquitous as 
piloted vehicles are operated today.
    Mr. Chairman, this budget is aligned in three priorities of 
the Air Force: to ensure technology is transitioned to war-
fighters with the expediency necessary to win the global war on 
terror, to develop our airmen as future technical leaders and 
ensure we have a competent workforce skilled in managing the 
complex weapon systems we will need for the future, and to 
ensure our research and development dollars are focused on 
modernizing and recapitalizing weapon systems critical to 
airspace and cyberspace dominance to ensure the Air Force can 
fly, fight, and win in any future conflict.
    Again, Mr. Chairman, members of the subcommittee and staff, 
thank you for allowing me to provide an opening statement, and 
I look forward to your questions.
    [The prepared statement of Mr. Jaggers can be found in the 
Appendix on page 99.]
    Mr. Smith. Thank you very much.
    Dr. Tether.

STATEMENT OF DR. ANTHONY J. TETHER, DIRECTOR, DEFENSE ADVANCED 
                RESEARCH PROJECTS AGENCY (DARPA)

    Dr. Tether. Chairman Smith, Congressman Thornberry, and 
distinguished members of the subcommittee, thank you for having 
me here today to describe DARPA's current research and our 
plans under the fiscal year 2009 budget request.
    This February was our 50th anniversary. My written 
testimony looks back over what we have done in the near past, 
since 2001, and highlights our progress in eight big deals, as 
well as the future. These big deals include: deny hiding in any 
environment and cultural background, providing persistent 
situational awareness and rapid strike, removing the value of 
using biological weapons, increasing the survival from life-
threatening wounds.
    I enjoyed writing this testimony since it gave me a chance 
to explain DARPA and to brag about the accomplishments we have 
made since 2001, and those in progress and yet to come. But 
please read it when you get a chance.
    The facts are, however, that we couldn't have done all this 
without a lot of outside help. But the help from the Congress, 
and this committee in particular, has been and will continue to 
be necessary for DARPA to be DARPA and to continue doing what 
we do.
    I heard from your staff that you are interested in large 
data set analysis. Because of that, I will spend a few minutes 
expanding on the written testimony and describe what DARPA does 
in this area.
    First of all, there are many levels of large data set 
analysis. The data from sensors such as Constant Hawk, and so 
forth, is most certainly large, and we do research in how to 
help people find targets of interest.
    But to me, a more interesting large data set problem is 
when you really don't know a priori what you are looking for, 
or even if there is any information in the data. After all, it 
may be just random.
    Well, we call our most sophisticated large data set 
research ``topological data analysis.'' Our large or massive 
data sets topological analysis program uses very sophisticated 
topology and geometry to capture the intrinsic geometry of 
massive data sets, and systematically extract hidden features 
therein.
    All that is needed to start the mathematics is a metric, 
such as the distance between any two data points in the set. 
Now, the distance doesn't have to be things like feet; it could 
be temperature, it could be density, it could be anything you 
want it to be.
    We have some current accomplishments. This analysis was 
applied to analyze massive data sets in biology--collections of 
heartbeat data for health and diseased patients.
    The data for healthy heartbeats appears to capture 
nontrivial higher geometric structure than those for diseased 
patients. In other words, there is a difference between the 
two. This work is just beginning, but the potential is 
absolutely enormous: statistical markers for health and 
disease.
    It has also been applied to uncover unexpected high-
dimensional structures in the statistics of natural images. 
Applications include novel, nonlinear compression schemes, as 
talked about earlier, for images and movies. This would greatly 
aid systems such as Constant Hawk in getting the data directly 
to the ground faster than possible today.
    By now, I am sure some of you are saying, ``Well, there he 
goes again. Is he ever going to tell us anything relevant to, 
you know, to what is going on in the world as we know it 
today?'' And the answer is that there is relevance to IEDs. 
There is great relevance, in fact.
    First, I cannot go into any specific details, due to the 
sensitivity of exposing countermeasures to the IED problem; but 
we have a program called Persistent Operational Surface 
Surveillance and Engagement (POSSE), joint with Joint 
Improvised Explosive Device Defeat Organization (JIEDDO), which 
has been briefed to your staffs, whose objective is to 
determine if there is any difference between a facility that 
makes bombs and an ordinary Iraqi facility.
    To do this, we have established an experimental capability 
at the National Training Center, at Fort Irvin, where we are 
going to gather an extremely large data base on all 
activities--normal Iraqi facilities and bomb-making. We hope to 
use techniques such as topological analysis to determine if 
there is any underlying structure to the data, with the hope 
that the structure you get from data coming from a bomb-maker's 
facility is different from an ordinary facility, thereby 
allowing us to find out where they are being made.
    This is really exciting. While I don't know the outcome--
because if I did, DARPA wouldn't be doing it--I am confident 
that tools such as topological analysis will answer the 
question, whether it can be done.
    I hope I have provided you with some insight into what we 
are doing in large data analyses, and request that you scan my 
written testimony to see what we have done and will be doing 
elsewhere. Again, none of this could be possible without the 
support you have given DARPA.
    I want to thank all of you personally, and from all of the 
DARPA employees as well as all our industry and university 
performers, for your support. We hope that this support 
continues into the future because without it, DARPA will not 
make it to its 100th anniversary.
    With that, I would be glad to take your questions.
    [The prepared statement of Dr. Tether can be found in the 
Appendix on page 113.]
    Mr. Smith. Thank you all very much. I appreciate it. And I 
appreciate the members' patience; as Mr. Thornberry mentioned, 
this is a whole lot of information in a whole lot of different 
areas. We are going to have some hearings that drill down into 
some of the specifics here on social modeling, on strategic 
communications, and also on biometrics, which we set up to help 
us get down into some of those specifics.
    And Dr. Tether, I specifically want to thank DARPA for 
their work on health care issues. You know, many of us here saw 
your prosthetics demonstrations on the advancements that have 
been made there, and some of the technologies that have been 
developed to enable battlefield survivability have been just 
incredible.
    And I know you are moving forward and taking the next steps 
on, you know, going beyond that and coming up with even greater 
health care advancements. I think it has been critical to our 
troops, and we appreciate that work.
    I want to ask specifically, you know, trying to follow up a 
little bit on the data management and bandwidth issue. Focusing 
on bandwidth for just a second: What does the solution look 
like, to your mind, in terms of the investments we are making?
    Because expanding the bandwidth really isn't an option; 
what we are trying to do here is we are trying to use less of 
it with what we do. And I know there is a number of 
technologies--we had a little science fair on this. Just from 
your perspective, you know, where should we be putting our 
money? What technologies are really going to get us up around 
that problem so that we can make more of the bandwidth that we 
have?
    Dr. Tether. Well, there are really two. One is that you can 
take the signal being transmitted and compress it so it takes 
up less bandwidth. That is sort of an obvious----
    Mr. Smith. Right.
    Dr. Tether. And we are all working on doing that type of 
technology.
    The other technology, that is actually coming into being as 
we speak, is at one time we looked at the spectrum. And the 
spectrum, as you all know, is 100 percent allocated, or 
licensed. And we asked the question, ``Well, how much of it is 
really being used?''
    And we did measurements, and we found that at any given 
amount of time, typically only 5 percent to 10 percent of the 
spectrum is being used. In other words, there is 20 times more 
spectrum available than what is being used right now.
    So what we have done is, over the last five, six years we 
have developed technology where radios--networks, actually--
will look at the spectrum, find out what is not being used, and 
then go to that frequency, create itself, and then be prepared 
to move if something came on. This is real. I mean, I just said 
something that requires a lot of technology: the ability to 
golf in gigahertz of bandwidth, find out what is not being 
used, and to coordinate all of these nodes together.
    But it is no longer science fiction; this is actually in 
play. We have demonstrated this at AP Hill.
    We are also putting it into radios right now, which are 
going to be going into service later this year. Now, this will 
take place because, quite frankly, this is a commercial thing 
as well. Our Federal Communications Commission (FCC) believes 
in it. In fact, they call it ``policy demand,'' or something 
like that. They are going to make up rules that these systems 
will follow. And I know it will take off.
    That, I think, is the biggest gain we can get in bandwidth 
by effectively--the bandwidth that we are using today is 1/20th 
to 1/10th of what we could be using, so we will get that gain. 
And you put, then, the gain on top of that--the compression 
techniques--which might give you another factor of two, of 
using less bandwidth, and I think our problem will be--well, 
probably never--because----
    Mr. Smith [continuing]. It will be much more managed. And 
the technology basically enables you to seek out and find the 
bandwidth that is out there and available. And, I mean, this 
will make an enormous difference for our troops in the field 
being able to communicate just by radio, and it is not even 
just the laptop, of, you know----
    Dr. Tether. Correct.
    Mr. Smith [continuing]. Can you get all the data. It is 
just being able to communicate with the various different 
pieces of it. I----
    Dr. Tether. One more effect, that if we don't know what 
frequency we are going to be on, neither does the enemy. Which 
means now, if we are going to be--if the enemy is going to try 
to jam us, they have to jam all the frequencies, because we 
will be on--otherwise we will be on the frequency that is not 
being jammed because the system will automatically go to----
    Mr. Smith. Automatically take us to where we need to go. I 
have other questions. I want to get Mr. Thornberry in before we 
go. We have, I believe, two votes. Is that correct?
    We are tabling more emotions and voting on the journal 
again. Make an argument about whether or not it is worth the 
trip over there.
    But we will go. I want to get Mr. Thornberry's questions 
in, and then we will come back, my guess would be--being 
realistic--40 minutes, probably, from the time we walk out of 
here to the time we get back. Because I do have other 
questions, and I know it is hard, but I would encourage other 
members to come back and we will get to them as soon as we do.
    Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman. I think I am going 
to wait with my questions and yield my five minutes to the 
former chairman, the gentleman from New Jersey.
    Mr. Smith. Mr. Saxton.
    Mr. Saxton. I believe it was Mr. Jaggers--I am not sure--
that talked about sorting through data to find where someone we 
are looking for might be and identify potential terrorists 
someplace in the world. Recognizing this is an open session and 
not a closed one where we can talk in detail, could you 
enlighten us a little bit more on that concept?
    Mr. Jaggers. I think I specifically said we were focused on 
increasing investments and shifting our investments from 
traditional threats to unconventional threats--terrorists--into 
the anticipate leadership--bad leadership--intentions, and to 
the tracking enemies--targets--anywhere, anyplace on the globe, 
24/7.
    We have a number of areas. Three come to mind that I think 
I would like to present right now.
    One is deployed currently. It is called Angel Fire; it is 
being used by the Marine Corps. We worked very closely with 
them, and a lot--most--of the technologies on the sensor part 
came from the Air Force Research Laboratory.
    And I brought this up last year. It provides kind of a TiVo 
picture review. Like, you could see an electro-optical (EO) 
picture of the battlespace, and then you can rewind and do 
forensics to see, if an IED went off, where the bad guy came 
from, to attribute the source and do some forensics.
    We have another effort, and that is an EO system, a day 
system, that is an all-weather system--day/night--which uses 
Synthetic Aperture Radar, SAR, technology called GOTCHA. It 
does basically the same thing, but it does it in an all-weather 
situation; again, to tag, track, and locate where these bad 
guys--not only where the event occurred, but where they came 
from, and go back to the source of the problem.
    We also have a significant investment in bio-taggants. 
While that can be used for individuals, it is specifically used 
for weapons of mass destruction--chemical, biological warfare 
agents--so we can put a biological taggant on those materials 
and now track and see where they go, in theater for sure, but 
hopefully anywhere in the world.
    Of course, I am probably causing the increased requirements 
in bandwidth as a result of this. So I am part of the solution, 
but part of the problem, too.
    Mr. Smith. Well, as long as you are using it well, we will 
try to find ways to accommodate.
    Mr. Jaggers. But probably the good outweighs the bad on 
this. Those were three examples, I think, that we are trying 
to----
    Mr. Smith. I think we will try to sneak one more in before 
we go.
    Ms. Castor.
    Ms. Castor. Thank you, Mr. Chairman.
    With the evolving global threat turning into more of the 
unconventional and irregular warfare, the responsibilities of 
Special Forces will continue to grow and evolve as well. 
Special Operations Command (SOCOM), for fiscal year 2009, their 
S&T request is around $65 million; that includes $11 million in 
the new area designated for Special Operations Forces, 
information broadcast systems, advanced technology.
    Mr. Shaffer, can you briefly describe how the Special 
Operations S&T requirements fit in overall, to the overall DOD 
S&T requirements, and their--you know, the SOCOM procurement is 
tied to the various services, and I imagine that is--I hope 
that is not the case for scientific research.
    Mr. Shaffer. Thank you.
    There are a number of ways, and as we have gone forward, we 
have reached out and tried to strengthen the ties between the 
gentleman at the table, DARPA, and also the folks in the 
agencies in SOCOM. So we have a fairly well established set of 
processes to coordinate the programs.
    I would like to give a couple of examples. One of the 
biggest problems--and Mr. Jaggers talked about it a little 
bit--was going out at finding terrorists--tagging, tracking, 
and locating problem.
    It gets to be very classified very quickly, but last year's 
SOCOM and some other components worked with DDR&E and the 
component to develop the tagging, tracking, and locating 
roadmap. From that roadmap we, across the Department, increased 
our investment specifically in some of the special--the SOCOM 
science and technology program elements, and also some Army 
program elements, to go out and increase basic research through 
product development in tagging, tracking, and locating.
    So, SOCOM is very much a part of our process. We recognize 
they have special needs, special types of activities. We work a 
lot with SOCOM through some of our newer offices that deal with 
irregular warfare.
    We have a new office in the Office of DDR&E, called the 
Rapid Reaction Technology Office, who specifically look at 
irregular warfare and trying to look for technology options 
somewhere in the next two years--two-year time horizon. That 
office has a weekly teleconference with members of SOCOM, the 
Joint Special Operations Command, and also theater commanders 
forward, to specifically review technology options, and 
specifically as that relates to irregular warfare.
    So we have done a lot of different things. That office got 
the DDR&E and the Department much more involved in the problem 
of biometrics.
    It has gone into areas of social, culture, behavioral 
modeling that is very important to the special operators. They 
have gone into strategic--it is called strategic multi-layer 
assessment, where we bring in folks from psychology 
backgrounds, anthropology backgrounds, war-fighters, put them 
all in a room, and ask them to red-team some problems or do 
some war-gaming with nontraditional people, who would reach out 
very, very carefully to SOCOM and integrate their program.
    But we don't want to get in the way in stopping it because 
we recognize the types of special missions special operators 
have to do. We want to support them, give them the additional 
technology they need, and we get a lot of support from the 
components working with SOCOM also, directly.
    I hope that addressed your question.
    Mr. Smith. We are down to about five minutes before we 
vote, so we will adjourn briefly. Actually, we should be able 
to be back, hopefully, in 20 to 25 minutes, and we will take 
some more questions from whatever members come back, and we 
will try to--we probably be adjourned no later than 12:30.
    Thank you very much. I apologize for the delay; we will be 
back as soon as we can.
    [Recess.]
    Mr. Smith. Thank you. Quicker than I expected. That doesn't 
happen very often around here.
    And the award for the first to return, we will turn it over 
to Mr. Kline for questions.
    Mr. Kline. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here, for your testimony, 
for your hard work, and all the great things that you do.
    Dr. Tether, I love this. You know, as we have been talking 
for a number of years, there has been a great need to 
facilitate private industry, small businesses--and large, but 
particularly small businesses--and their ability to bring ideas 
to you and to conduct business with you. So I am very, very 
pleased to see this.
    And on the same lines, I am looking at this--another really 
neat document. On page 45 in your additional information, you 
talk about a special assistant for technology transition and 
the DARPA operational liaisons and representatives.
    And so, what I would like for you to do is just tell us how 
you have moved into communicating interservice, 
intradepartment, and more specifically this, and what your 
sense is now of how that communications is going.
    Dr. Tether. Well, it is always very hard to measure on how 
it is going. We do try to--I have always been concerned that we 
aren't reaching out to all the people that should know about 
us. It always still amazes me when--and this is, you know, I 
mean, I like it, but--when you have a constituent that comes to 
you, and your staff comes to us, when, why didn't they come to 
us in the first place? Well, for the most part they didn't know 
about us. But that bothers me.
    And it still bothers me, and that is why we work hard. We 
have this DARPATech, we work really hard on trying to get out 
that we really are a friendly place, and--but, you know, that 
doesn't mean that, you know, we don't enjoy your constituents 
that come to us that way, too; because quite frankly, they come 
with good ideas. You know, as I said once before, we accept--
good ideas come from any place, even the Congress, right? I 
mean----
    [Laughter.]
    Mr. Smith. Let us not take it that far. Come on. 
[Laughter.]
    Dr. Tether. On the operational liaisons--in fact, I have 
them here with me today--we have one from each service. We have 
one from National Security Agency (NSA), one from Defense 
Information Security Agency (DISA), and one from National 
Geospatial-Intelligence Agency (NGA).
    So we have one from each service and agency that does a lot 
of business with us, and their purpose is to take our program 
managers, who, as you know, are really only there for a short 
period of time, and they really have come from places where 
they sometimes they really don't understand the government or 
the military, to make sure that that program manager, from the 
very beginning, meets an operator--not an S&T guy, you know, we 
get enough of these guys--but to go out to an operator so that 
program manager can explain what he is doing.
    That gives us two things: the operator learns that 
something new is coming; more importantly, from my viewpoint, 
the operator talks to my program manager and tells him about 
his problems and his needs, and we get that going. So when the 
technology then gets developed, when it is time to transition 
it, you know, we have already established, if you will, a 
constituency about it.
    Because quite frankly, transitioning this technology--all 
these reports, all these briefings--this is a contact sport. 
You know, it really is a contact sport on transitioning 
technology; it comes down to people on people to make that 
happen. And again, you know, we really work hard at that.
    The interns are another way that we do this. These are a 
group of people that come every 3 months--about 10 to 12 of 
them--from all walks of the services. They are picked by the 
chiefs of the services to come to us.
    In fact, I have them with me, too. They love to come and 
see what goes on, you know. And this is our current group. Now, 
we have had almost 100 of these since we started this program, 
and these are 100, if you will, people that are now back at the 
services.
    They are only with us for three months, which means that 
they leave with a little DARPA stink on them--not enough to 
screw up their career, hopefully--but it is now people that we 
have out in the services who know about us. And again, it is 
trying to get that word out about DARPA. We work hard at it----
    Mr. Kline. Well, I appreciate it very much, because I think 
we need to do all of those things, and certainly the 
transition, and clearly there are good ideas out there, and as 
you know, particularly at your level, a lot of this isn't 
requirements-driven so much. People haven't even thought of 
what you are putting forward----
    Dr. Tether. Correct.
    Mr. Kline [continuing]. So that communication is absolutely 
terrific. I am about to get the red light here, so I would just 
make a comment, and maybe we will have a chance to talk about 
it later. It is very clear that all of our services are 
increasingly dependent upon GPS for so many things--precision 
munitions, navigation, and everything.
    And I would hope that somebody--probably under the DDR&E 
hat--but somebody is constantly looking at how we are going to 
protect that and make sure that we haven't bought into a 
vulnerability by making so many things depend upon it for the 
naval munitions, Army munitions, and across the board. I see 
the light is red; if we have another chance, I would like to 
have some dialogue----
    Mr. Smith. Yes. Hopefully we will.
    Mr. Thornberry, you had graciously passed. We want to go 
back to you.
    Mr. Thornberry. Thank you, Mr. Chairman.
    I guess I want to ask about a couple things, the way they 
work or not.
    Dr. Tether, I noticed in the information we had received 
from the staff, as well as from your testimony, there was 
comment about money being rescinded out of your budget in the 
past due to poor execution rates. It is something that has 
always bothered me, that if an agency doesn't spend their money 
we decide they don't really need it and take it away, creating 
the incentive to spend the money regardless of whether one 
spends it well or not.
    So I am just curious, are the rescissions that you have had 
something that have been not that bad? Has it had a detrimental 
effect? And how does that affect your ability to do your work?
    Dr. Tether. Well, you know, we have a major ongoing 
conversation with the comptroller--I will call it a 
conversation. We operate differently than the rest of the 
Department in that when a--at the beginning of a fiscal year, 
if a contractor--performer--is under contract, and let us say 
they have a milestone halfway through the fiscal year--we call 
the milestones ``Go/No-Go's'' because is sounds more turconian, 
but, you know--they will fund the whole year.
    Now that, from the comptroller's viewpoint, that means that 
that person is 100 percent obligated. However, we don't do 
that; we only fund the contractor up to that Go/No-Go, and hold 
the money. So from the comptroller's viewpoint when they look 
at the books, we look like we are 50 percent obligated because 
we are holding back that money.
    It causes a strange dynamic when you work it that way. If 
you have got all your money with a contractor and the 
contractor doesn't make the milestone, then the pressure is to 
let them keep going because the money is already out there.
    In our case, the pressure is on the contractor to perform. 
And what sometimes happens is that while we had a date for them 
to do that Go/No-Go, they sometimes don't do it on that date, 
they do it a few months later, and they don't ask for any more 
money.
    So if you take that with a $3 billion budget and have 
everybody slip a month, you are talking a couple hundred 
million dollars of cash that you have now generated--you know, 
from a bean-counting viewpoint. And the comptroller looks at 
that as, ``Hey, you know, I have got other things to do with 
this.'' And it is okay, actually. You know? It is okay. I don't 
like the trend, but it is okay because we do generate cash, 
because we are very frugal with the way we spend money.
    But what it does--DARPA's really success has always been 
that we have the flexibility--and you guys have given us this 
flexibility--that if somebody walked in the door with a good 
idea, we could start a program and wouldn't have to wait two 
years, which is what the services sometimes find themselves in. 
And that is the danger.
    But the money that has been taken so far--yes, you know, I 
have had to prematurely kill a few programs that, in reality, I 
figured weren't going to make their Go/No-Go's anyways. And it 
turned out that that was the case. But I never gave them the 
chance; I mean, I never gave them the chance to fail, they just 
failed because of the money being taken away.
    I hope that answered the question.
    Mr. Thornberry. No, it is helpful. I think it is something 
we want to continue to watch with you, because again, it 
sometimes doesn't make sense.
    Mr. Shaffer, let me ask you--this is a broad subject; we 
don't have time to get into it too much--but, in another hat, 
on the Intelligence Committee we just had a hearing about the 
Research & Development (R&D) efforts of that community, and I 
am struck not only by the overlap between what you all do and 
what the Intelligence Community does, but the overlap with the 
medical research, and everybody and their brother is doing 
cyber research of some sort, and, you know, you just go down 
the line.
    As the domains of warfare have expanded, that means the 
potential overlaps in--which is good; that means more people 
are looking into it--but the challenge is, how do you 
coordinate all that? One of the major concerns, I think, of 
this subcommittee and other subcommittees is this interagency, 
working together, not just having a teleconference every other 
week, but how do you really make sure that the money that these 
folks are spending on cyber fits with the money that other 
folks are spending on cyber, and other----
    And that is too broad a question to answer fully, but let 
me--how do you evaluate the current S&T interagency 
coordination, if you had to give it a grade from ``A'' to 
``F''? And are we getting better or are we getting worse?
    Mr. Shaffer. Sir, I will give you a grade, but then I want 
to amplify on the grade. We are probably about a ``C.'' We 
could do better; we could do worse.
    But I want to come back and react a little bit to something 
you said early on about, there seems to be a lot of 
duplication. And there may be some duplication, but there is a 
whole lot more cooperation than duplication.
    So a lot of times you go out to folks and two people will 
tout a similar thing. What is really happening is they are 
collaborating and both people are claiming credit for it, but 
they are sharing their money and working together.
    Case in point: This year it didn't happen, but last year 
when we looked at the science and technology statements from 
this panel, I think every service claimed some success with a 
program called Angel Fire--Mr. Jaggers talked about it today. 
Well, the reality is, we all had a little skin in that game.
    We have skin in the game with Central Intelligence Agency 
(CIA)--very much in the Intel Community, coordinating our 
program. Dr. Tether, I know, has a liaison with the 
intelligence agencies; I think most of the other gentlemen do, 
too. And we coordinate our program very carefully.
    We do--I would like to tell you it is detailed program 
reviews; it is probably not as detailed as it should be. But we 
all get together and compare programs and pool money where we 
can, because while it sounds like a lot of money, $11 billion 
just doesn't go as far as it used to; and if I can use a little 
bit of someone else's money to make a program go better, we 
will do that.
    And you asked about cyber protection. Great question. 
Because we recognize that a lot of groups were jumping on the 
cyber protection bandwagon--and this actually came out of the 
Office of Science and Technology policy--they pulled together 
what effectively is a Presidential coordination committee to 
get the programs together, get them aligned, and make sure that 
we are leveraging each other's money.
    So before calling something duplication, I would ask that 
we need to pull the string and make sure that it is really not 
leveraging and working together; because a lot of times that is 
the case.
    Mr. Thornberry. Yes. And I think you make a fair point, 
that marketing departments of different agencies will triumph 
the same thing. Fair point.
    On the other hand, if you get a hot trend, everybody wants 
to jump on that bandwagon and, you know, it is not necessarily 
a bad thing to have different people looking at a problem in 
different ways--I am not saying so--but on the other hand, we 
also have to make sure that it is something more than a trend 
and that we are really working together. So I appreciate it.
    Mr. Chairman, I would yield.
    Mr. Smith. Thank you, Mr. Thornberry.
    Mrs. Gillibrand.
    Mrs. Gillibrand. Thank you, Mr. Chairman.
    I want to continue the conversation about cyber security, 
if I may. One of the concerns that I have is, obviously for 
this subcommittee it is one of the very real threats we face, 
and I want to make sure that we are committing the appropriate 
resources--sufficient resources--specifically for it.
    And I also want you to comment on how our recruitment is 
doing. I am concerned that if we are going to build the talent 
pool that we need to stay at the forefront of cyber-terrorism 
defense, that we may need to recruit outside the box--really 
looking toward our engineering schools very proactively and 
trying to create a military service training and capacity that 
may be different for these types of members of the military; 
because they may not be hired for combat missions, for example, 
they are hired for development in science and technology in 
their engineering background, and they may have a different pay 
grade, they may have a different work environment.
    And I want to hear more detail about what you have 
considered, what has worked, what hasn't worked, and really 
what your five-year plan is.
    Mr. Shaffer. Yes, ma'am. And I may yield a little bit of 
the time for the cyber protection to----
    Mrs. Gillibrand. Whoever is the most appropriate to 
answer----
    Mr. Shaffer [continuing]. But I would like to address the 
cyber protection question first. You asked--because it is a hot 
area--do we have enough investment in it? Do we not have enough 
investment? Frankly, I am not sure I know right now.
    I know we have a solid program going forward, but because 
it is a new area, we have a very detailed ongoing study with 
members from each of the agencies represented at this table--
and we are due to report this to the deputy secretary by this 
summer--on what is the right amount and shape of our science 
and technology program needed specifically for cyber 
protection? So I can't give you a really finite answer right 
now; I can tell you, we have a due out to the deputy secretary 
to come back and tell him how much.
    So, what I would propose to say, rather than give you an 
answer right now: We are comfortable with the 2009 budget 
request, but I think that there is more----
    Mrs. Gillibrand. I thought we were underfunded in science 
and technology by several millions of dollars.
    Mr. Shaffer. In cyber protection?
    Mrs. Gillibrand. No, just in science and technology in 
general; so I didn't know how much would come out of cyber 
protection.
    Mr. Shaffer. Again, I don't know how I would address your 
question about being underfunded in science and technology. 
Science and technology in general, we are at $11.5 billion, and 
the seven largest requests since we went to this budget process 
in 1962 have come in the last 7 years.
    So, you know, could we use more money? I would always love 
more money. But historically, we are funded fairly well right 
now. What we have to do is make sure that what we have, and the 
money we have, is invested correctly and providing good 
taxpayer benefit.
    So that may not be exactly the answer to your question, but 
you know, we are all taxpayer stewards. And you have to go 
ahead and make sure that whatever we spend, we give something 
back to the taxpayer. And cyber protection is a hard area.
    Mrs. Gillibrand. Yes, I think we are--under this briefing, 
we are down $20 million for advanced tactical computer science 
and sensor technology; DARPA is down $33 million; there is a 
number that are down in the high-tech region; aerospace 
technology development down $20 million.
    Mr. Shaffer. Ma'am, and there are specific lines that are 
down; there are other specific lines that are up. What I will 
tell you, ma'am, is over the last three years--or last two 
years--we have reshaped our science and technology program over 
the FYDP, the Future Year Defense Program that is five or six 
years, by moving about $3 billion total assets over that time 
period into things like biometrics; human, social, culture, 
behavioral modeling; cyber protection.
    We did have some other funding come up in cyber protection 
in 2009. So you are going to see ebbs and flows in different 
areas, but for the most part we are moving money into 
irregular--technologies to help us work the irregular warfare 
aspects.
    And to the second part of your question, you are right. 
That is calling us to go out a get a different type of person 
to come into the science and engineering career force. We are 
working on that; we have a number of programs--engineering 
development, most notably the Nation Defense Education Program, 
where we are going out and actually paying people to get 
undergraduate and graduate degrees with a payback period to 
come in and work for a Department of Defense laboratory.
    I have 134 people in the program right now. Think of it 
almost like a Reserve Officer Training Corps program for 
civilian scientists and engineers. This year we had over 1,000 
people apply for roughly 100 scholarships, so we are getting 
good people to apply.
    Mr. Smith. We neglected to start the clock here, but I 
think we are pretty close to five minutes. Did you have 
anything else quickly? I wanted to get back to Mr. Kline.
    Mrs. Gillibrand. I do, but I will wait my turn if we want 
to go around again.
    Mr. Smith. I had one more question myself, but if we get 
back to Mr. Kline--you had some follow up further that you 
wanted to do?
    Mr. Kline. Yes. And I will just limit it to the one area.
    Let me reset the stage again. Each service, with each 
year--arguably each day or week--has got another system, 
another requirement, another need, another reliance on GPS, to 
the point where, hypothetically--I am going to walk into 
whatever classified areas--but hypothetically you may be 
developing one of the services a gun that has absolutely no 
ballistic capability. You shoot it, and if the GPS doesn't work 
the bullet doesn't land there. Hypothetically.
    But the point is that we are really leaning on GPS. And so 
my question, perhaps to the DDR&E, perhaps to any of you: Are 
you confident that we are working, at any level in R&D--S&T on 
up--on making sure that we have either the correct protection 
or redundancy in that area? And I will just leave it at that 
and see what you have got.
    Mr. Shaffer. Yes, sir. I will give a brief answer and then 
turn it over to the other panel members.
    There are a number of programs working in GPS. The one I 
would like to highlight is one started last year by the DDR&E 
in collaboration with the Navy and the Naval Research 
Laboratory. Now, it is a program element called I-Integrity 
Global Positioning System, and what it does is combine the 
signal--I can't get into any more detail than this--combine the 
signal from conventional GPS with commercial satellite 
communications to give a redundancy in case we lose some of the 
capacity of our GPS system.
    So yes, we are looking at different types of methods and 
different technologies to protect that very critical aspect.
    Admiral Landay. Yes. I would say from the Navy, you know, 
because of the history with submarines, we have historically 
looked at alternative ways to do navigation and position-
keeping, and we continue to look at that. And as we see 
technology develop, even though there is right now a very heavy 
reliance on GPS, there is work going on in other ways that we 
can improve our accuracy not based on GPS, be that work that is 
going on on inertial measurement unit (IMU) that can be, you 
know, trunked down very small so that you can start putting 
those in, to different ways to fix your position to--just as we 
were able to go to GPS because we could more accurately measure 
time, does that allow us to fix our position in other ways, 
given that we know how to do that?
    So I think clearly there is a large reliance on GPS right 
now, but there is also a very strong effort to say, ``What else 
is there out there?'' not only because of the potential threats 
to GPS, but also in some cases, GPS doesn't do what we want to 
do. Unmanned underwater vehicles are a great example of that. 
If I have to keep popping them up to get a GPS fix, we are kind 
of disadvantaging what they bring.
    So there is a strong desire to look for alternatives while 
GPS remains the primary one as of right now.
    Dr. Tether. And what we have done--in fact, it is in that 
book that you held up, on page 17--is, one of the things with 
networks that we have today--these self-forming networks that 
basically are the basis of our whole future warfare, that 
people will be connected together and therefore have great 
situational awareness, but that these networks do it by 
themselves--the one thing that they all seem to have to have is 
a common time hack, and right now we use the GPS signal for 
time more than we do for location, in the network area.
    So if you look on page 17, to try to overcome that 
vulnerability, we basically took an atomic clock--which is a 
big thing if you have ever seen one, it is the size of these 
tables here--and we put it on a chip. And it exists today. 
Again, this is, you know, started five, six years ago.
    This is not science fiction. I mean, we were trying to get 
it down to one cubic centimeter; we are still working to get it 
down to one cubic centimeter using 30 milliwatts of power. We 
are about three times that in size and about three times that 
in power now.
    But this is on a chip which has 1 second and 10,000 years 
accuracy. What this means--and it is going to the Single 
Channel Ground and Airborne Radio System (SINCGARS), by the 
way. The SINCGARS network, if you tried to turn off the radio 
to save batteries, the problem is that after a few hours if you 
tried to get back on the net it would take you a long time.
    But SINCGARS is putting in even the larger version of the 
atomic clock because, quite frankly, they have got a lot of 
room to put it. And they will be able to turn that SINCGARS 
radio off, and then hours later turn it back on and instantly 
be back on the network because the time hack for the encryption 
will still be valid.
    So we are working that problem that way with that 
technology. Now, the IMU stuff that Bill talked about is also 
true, and I think they are doing a good job on that.
    Mr. Kline. Okay. The clock is about to go red, and I am 
going to yield back, but I just want to say thanks.
    I knew that people were working; I hope that we have got 
a--to Mr. Thornberry's point--sort of a coordinated effort here 
to make sure that we are covering these bases and we are not 
just going to turn around one day and radios won't talk, ships 
will be lost, you know, bullets don't go where we want them to 
and all that sort of thing. And it is a concern; I am glad to 
hear that you are on top of it, and for all things I will just 
say thanks.
    I yield back.
    Mr. Smith. Thank you.
    I want to follow up on the data management question, try to 
get a practical example of how this works and what we are 
trying to do in terms of dealing with it. You know, we gather a 
lot of information for intelligence purposes from a whole wide 
variety of different sources, which we don't have to get into. 
But basically it generates, you know, voice, pictures, data, 
you know, from, you know, Iraq, Afghanistan, a variety of other 
places as well.
    So somewhere within, you know, the Pentagon, or perhaps 
within the CIA, all of this information is coming back, and 
there is a lot--a lot--of it. A staggering amount of it, as a 
matter of fact, if you were to take a look at it.
    And we are looking for certain things in that data. Not 
just idly curious about everything; looking for, you know, 
high-value targets. You know, obviously we would like to see 
their smiling face hanging out at, you know, at a house 
somewhere, but certainly see them moving, you know, looking, 
you know, as we have talked about improvised explosive devices 
as their topographical information is coming back that is 
telling us a little bit about where they might be.
    So all this stuff comes back, and, you know, you could 
probably come up with your statistic for, you know, your 
average computer person. Let us imagine that there is one 
person sitting somewhere, you know, and all this stuff is 
coming back to him. And it would take him, you know, 100,000 
years to look through all of it--just 1 year's worth. What are 
the various technologies and approaches that we employ to try 
to, you know, sift through the meaningless data that is just 
open landscape, people going back and forth to markets who we 
don't care about, cell phone conversations between teenagers, 
all that stuff that we are not really interested in, to get 
down to the stuff we are interested in?
    You know, avoiding getting into any classified stuff, but 
just roughly speaking, what do we do to try to synthesize that 
now, and then, you know, in Dr. Tether's area, you know, what 
are we trying to develop? What are the most promising 
technologies to get better at that? And any one of the services 
that wants to take a crack at that--Dr. Killion----
    Dr. Killion. Well, certainly one class of technologies that 
we are pursuing for various applications is Intelligent Agent 
Technology----
    Mr. Smith. Right.
    Dr. Killion [continuing]. Essentially something that is 
posted on your computer that is looking for specific aspects in 
the data and can prompt you when it finds something that you 
need to look at. We found a need for that in some change 
detection work that we had done, where it is hard to have an 
analyst look at a strip map from the day before and the one 
that you just took an hour ago, and compare and find all the 
little changes that may have occurred; whereas, if the computer 
can say, ``There is a change here, here, and here''----
    Mr. Smith. Look at those three.
    Dr. Killion [continuing]. He can look at those, and he 
doesn't have to spend 12 hours poring through that strip map. 
He can do it in 10 minutes, perhaps. So that type of technology 
is certainly applicable in this domain, helps us identify where 
is the relevant portions of the data to look at, and then 
reduces the overload of the operator.
    Mr. Smith. And how good is that? How dependable are those 
intelligent agents out there? I mean, it is a hard metric to 
measure, I will grant you, but how confident are you that it is 
picking out the stuff that you need to see?
    Dr. Killion. I think it does a pretty good job, to be 
honest----
    Mr. Smith. Yes.
    Dr. Killion [continuing]. Mainly because it is tuned to the 
specific domain of interest.
    Mr. Smith. Right.
    Dr. Killion. What we have found--I went to graduate school 
in an era when they were talking about, artificial intelligence 
computers were going to be just as intelligent as people any 
day now, you know, and unfortunately that was quite some time 
ago, they are not there yet. But what has been demonstrated 
successful since that time are expert systems in specific 
domains, and that is essentially what an intelligent agent is--
something that is tuned to that domain and can recognize those 
characteristics.
    Mr. Smith. And actually computers, based on what I have 
seen, are coming a lot closer to that day you mentioned than 
most of us would be comfortable with, as a matter of fact. And 
in terms of, you know--I guess one of the other questions is, 
basically it is also, I mean, the dependability of it, the 
usefulness of it is dependent upon the data, as always, that we 
put into it--the modeling when we decide to put in the 
intelligent agent, we decide what it is looking for.
    So we have got to be, you know, clever about that; and that 
is probably, from what I hear you saying, is, you know, a good 
80, 90 percent of the battle right there, is to have the 
intelligent agent know what it is looking for. And there is 
obvious limitations to that, because every once in a while 
something pops up that is interesting, that is important, that 
we had not planned to be looking for, and there is really not 
much you can do about that.
    That helps me. And I am about out of time, and I know Ms. 
Gillibrand had a couple more questions that she wanted to 
follow up on. So I am done, and I will turn it over to Ms. 
Gillibrand for any follow-up that she had.
    Mrs. Gillibrand. Thank you.
    I just wanted to continue to pursue the line of questioning 
we were talking about. You said the response to the need to 
hire more engineers--because in your testimony you talk about 
the reduction in the number of PhDs in this country that are 
being developed. So in response, you are recruiting at an 
earlier year level, trying to cultivate these engineers and 
scientists earlier.
    What else are you doing? Are you going to do anything about 
salaries or different facilities, different training? Are you 
looking at public-private partnerships in the meantime to have 
access to the greatest minds that may be in the private sector? 
Because I think just 150 people that you are recruiting now is 
probably not enough.
    Mr. Shaffer. Fair comment, and we are looking at a lot of 
different things. Right now we are trying to work our way 
through as we are implementing the National Security Personnel 
System and understanding the nuance of what you can and cannot 
do. But there is also a number of authorities out there in the 
personnel system that we have begun to take advantage of.
    There are programs like Highly Qualified Expert, that 
allows us to go out and hire people, fairly quickly, at a 
higher salary structure rate. We continue to use the IPAs--
Intergovernmental Personnel Act, I think is the full title--to 
go out and hire people, some of these areas that, coming in 
from a non-profit, not-for-profit, coming in and acting as a 
government person in those areas where we have a hard time 
meeting some of the salary structure.
    So we have a number of IPAs scattered throughout the 
science and engineering infrastructure. We have, I think, a 
fairly effective--and it is a very interesting thing--we have a 
fairly effective internship program at each of these 
gentlemen's laboratories. And the reason I bring up the 
internship program: Scientists and engineers are strange 
people. I shouldn't say that, but scientists and engineers 
are----
    Mrs. Gillibrand. Talented people.
    Mr. Shaffer [continuing]. Strange and talented. It is 
funny. Scientists and engineers are not just motivated by 
money. They are motivated by getting up in the morning and 
saying, ``That is an interesting problem and I want to work 
there.''
    So if we can go out and reach out and bring in kids who are 
in, you know, universities and even high schools, as interns, 
and let them come in and see what the possibilities are, you 
can start to hook them. And I know that that has been very 
effective. We put some people--actually, some people have come 
to me--I have put some people over at Navy Research Laboratory 
because it is in D.C. The people come out of that loving what 
they are doing.
    But we have to be very creative in a very competitive job 
market. I won't tell you, ma'am, that we have all the answers. 
We are looking at things. I would like to yield to some of my 
colleagues to----
    Mr. Jaggers. From the Air Force, I would like to address 
that. I think the Air Force is trying to lean forward in this 
area. Something----
    Mrs. Gillibrand. And you are also doing the cyber security 
mission right now, aren't you?
    Mr. Jaggers. Yes, ma'am, a number of cyber activities. 
There has been a legacy of information technology investment up 
at Rome, in the Air Force Research Laboratory, that has taken 
on a new dimension, new flavor, on cyber network protection, 
network defense, network attack. I can't claim we have a 
completely comprehensive strategy right now, but I would like 
to highlight a few things that we are doing right now.
    First of all, we are setting up cyber command as its own 
command. I think that is going to do a lot to institutionalize 
a workforce; right now there is no centralized place for these 
people to go. The carenpeding is in a number of different 
functional stovepipe areas, so this will put a cohesive wrapper 
around that workforce.
    Civilians--we have been hiring them in through lab demo, 
lab demonstration programs. So they are a little bit easier to 
get to. The military--we are trying to understand the pipeline 
for the accessions that we have to create. We have an ongoing 
study with RAND right now to understand what that background--
technical background--should be for those military officers.
    The struggle here is, there is not a strong academic 
institution right now. Cybernetics, for example--there is no 
cybernetics degrees in the nation, and we need to focus on 
creating those and putting those in place in academia so those 
people that we assess into the military, and civilians, have 
that background.
    I mentioned the $13 million that we have moved into the 
cyber--fighting our way through cyber attacks; I mentioned the 
$5 million that we have put into cyber defense, a cyber bot, to 
do defensive network protection.
    But more importantly, what that does is it attracts that 
workforce that wants to do those exciting things. In fact, we 
were just talking on Sunday--I don't know if you saw a 
commercial on TV, but it was one of the first that the Air 
Force put out to entice young folks, military and civilian, to 
get into the cyber domain of the Air Force. And I thought that 
was very encouraging. We didn't see jets flying on the 
commercial--the 30-second spot--we saw people working cyber 
attack, and I thought that was pretty neat.
    Mrs. Gillibrand. Thank you.
    Dr. Killion. And to reinforce what Terry is saying, real 
quickly, and Al mentioned: If you go out to the laboratories 
today--our laboratories--you will find a lot of younger people 
there than there were five years ago.
    Mrs. Gillibrand. Great.
    Dr. Killion. People who have come in because they are 
interested in supporting this nation's security. They are 
intrigued by the opportunity to work in this area, and we 
provide an environment with unique tools and challenges, that 
they come in each day and have the opportunity to work on very 
interesting problems. Up at Aberdeen they can blow things up or 
try to keep things from being blown up, and elsewhere they work 
on the network.
    Mrs. Gillibrand. Thank you.
    Admiral Landay. And I would, again, just echo all that. I 
think from a science and technology--whether it is in cyber or 
anywhere--one advantage we have that the commercial folks don't 
have is we tend to still do a lot of good, basic research.
    Mrs. Gillibrand. Right.
    Admiral Landay. Industry tends to want to go more to 
applied, so you have a recruiting tool out there for young 
scientists to come, particularly at the research level, because 
we will let them go do research that is of interest to us at 
that basic and early applied level.
    In the cyber area, again, I think we are all doing, you 
know, very similar things. The services are working through 
that. You know, our network com does the cyber defense pieces 
of it for the Navy and to the Navy networks. But our SSG, our 
strategic studies group, has taken the thinking of this a 
little bit further. They were chartered by the Chief of Naval 
Operations (CNO) last year to take a look at cyberspace--not 
cyber warfare, but the broader cyberspace--and how it is going 
to support, and what we need to do to support naval warfare and 
naval operations in the future. They had a lot of discussion 
about--even on the military side--a cyber-enabled sailor, and 
what that really means.
    And so, beyond the subset of folks who are going to be 
skilled, you know, defenders or attackers within the network, 
there is a broader sense that there is a skill set that you are 
going to need to have the average sailor to have that is above, 
probably, where we are today. So I think there is a lot of 
thinking about this, and the tendency is on the defense piece 
of it, which I think is the nearest one to--I think there is 
also a lot of discussion that says, ``What, really, does this 
domain start to enable us to do that maybe in the past we 
hadn't thought about?'' More, kind of, ones and zeros and not 
cyberspace.
    But I think there is a lot of good work going on in this 
area. Thank you.
    Mrs. Gillibrand. Thank you. I am encouraged. Thank you.
    Mr. Smith. And I do think that is the great advantage we 
have in recruitment, back on the original part. You know, you 
are doing some fascinating things that simply cannot be done 
elsewhere. And like you said, Mr. Shaffer, your average 
scientific mind is attracted to that kind of thing, and I think 
that is the great pitch that we have.
    I have nothing further. I wanted to see if Mr. Thornberry--
--
    Mr. Thornberry. Mr. Chairman, I have a matter of--a 
question I want to direct to the Navy, but it will be in 
classified form, I am afraid, so I want to alert you that we 
will be getting that to you.
    The only other thing I would like to do is to commend you 
for improving the I.Q. and the class of the room by starting 
off with a Texas Longhorn. [Laughter.]
    But it does occur to me that it would certainly benefit me, 
and perhaps the subcommittee, if we could have periodic 
informal exchanges with JASONs about some of the trends that we 
need to be thinking about and focusing on. I think it would 
help us do our job.
    And with that, I yield.
    Mr. Smith. I want to thank all of you for coming and 
testifying this morning, and for the great work that you do on 
the science and technology issues. And we look forward to 
working with you on all of those issues. Thanks for coming in. 
I appreciate your time.
    We are adjourned.
    [Whereupon, at 12:25 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             March 13, 2008

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 13, 2008

=======================================================================

      

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 13, 2008

=======================================================================

      
                    QUESTIONS SUBMITTED BY MR. SMITH

    Mr. Smith. In complex irregular warfare operations, technological 
superiority (big platforms) may not be an effective force multiplier. 
Instead, ``soft'' skills, such as languages, cultural awareness, 
information operations/psychological operations, and civil affairs may 
be required. a. How can technology help the U.S. military rapidly 
acquire the ``soft'' skills it needs to be effective in irregular 
warfare operations? b. How does technological superiority fit within 
today's threat environment?
    Admiral Landy. a. The use of technology to develop ``soft'' skills, 
including language skills, cultural awareness, effective information 
operations/psychological operations and civil affairs, is the focus of 
the Office of Naval Research's programmatic investments in social, 
cultural and behavioral sciences. The objectives of these programs are 
to

      <bullet>  Understand and forecast human behavior in ethnically 
diverse societies as viewed from perspectives that scale from the 
individual to organizational and societal levels of understanding

      <bullet>  Develop empirically informed and validated 
computational models of the socio-cultural determinants of the 
opinions, values, attitudes and actions of individuals and groups in 
societies of current and anticipated operational interest

      <bullet>  Create the knowledge base and virtual and immersive 
training science that will provide the warfighter with the language and 
cultural skills necessary to fight effectively in the complex irregular 
warfare environment

      <bullet>  Develop training technologies that will provide 
warfighters the ability to understand, exploit, and forecast the 
effects of information and psychological operations.

    Technologies developed in the pursuit of these objectives can be 
applied by Naval analysts, planners, trainers, combatants, and by the 
intelligence community for a variety of purposes, including:

      <bullet>  Supporting the development of strategies to influence 
the opinions and attitudes of individuals and groups toward terrorism 
as a political solution and toward the United States and its 
institutions and interests

      <bullet>  Forecasting terrorist activity and the likely reactions 
of terrorist organizations to possible US interventions

      <bullet>  Understanding and more effectively combating the 
radicalization process

      <bullet>  Developing more systematic approaches for reasoning 
about the likely behaviors of asymmetric agents and their networks

      <bullet>  Creating training curricula for military decision 
makers and members of the intelligence community in counter-terrorism, 
irregular warfare, and stability, security, transition and 
reconstruction (SSTR) operations.

    The Office of Naval Research is currently supporting technology 
development programs to achieve these capabilities. Three examples are 
the Marine Corps Immersive Infantry Trainer at Camp Pendleton, 
California, the Integrated System for Language Education and Training 
(ISLET), and the NonKin (non-kinetic) Village program. The Immersive 
Infantry Trainer provides an immersive environment for fire teams and 
squads to train in a reconfigurable urban setting that combines live 
and virtual training. ISLET will provide highly-motivating education 
and training in foreign language and culture on an immersive web-based 
gaming platform. The NonKin Village program is developing a serious 
game that teaches COIN (counter-insurgency) theory for operations 
within culture-specific civilian populations.
    b. Technological superiority in future Naval concepts will not 
necessarily equate to big platforms. As we strive to create and sustain 
a Navy and Marine Corps that can be successful in both the peer 
competitor and asymmetric warfare environments, technological 
superiority requires both traditional large weapons systems and 
emerging areas of enhanced operations, effective use of cyberspace, 
persistent maritime domain awareness, etc.
    Technological superiority is still critical, but we must expand our 
understanding of what that implies and ensure that technology 
development for use in irregular warfare is done in lock step with 
developing tactics, techniques, and procedures as well as training to 
wield that superiority effectively.
    Mr. Smith. The DOD S&T Program is chartered, in part, to ensure the 
Department avoids technological surprise. Yet some may argue that DOD 
has been technologically surprised by IEDs, EFPs, and cyberwarfare. 
What efforts does your organization undertake to avoid technological 
surprise? How are these different than they were five years ago?
    Admiral Landy. At the Office of Naval Research (ONR), we believe 
that planning in the face of uncertainty requires an investment in 
building and strengthening the breadth of science and technology (S&T) 
capacity to allow Naval S&T (and thereby Naval Forces) the ability to 
anticipate and respond to unforeseen and new threats. The ``breadth'' 
of the Discovery and Invention (D&I) portfolio is manifested through 
the diverse set of Research Areas of investment. It is these D&I 
investments in Naval relevant fields that build S&T capacity. The 
strength of this approach is tested when a new need arises, and the 
portfolio has a suite of ideas and performers that can in a short 
period develop a technology for the new threat. One key example of this 
is the Counter IED jammer work in 2006 that resulted from broad ``basic 
and applied'' research investments in Electronic Warfare. When the need 
arose, ONR was able to tap into research at The Naval Research 
Laboratory to very quickly develop, test, and field an electronic 
warfare jammer for OIF.
    In addition to a robust D&I portfolio, avoiding technological 
surprise requires an awareness of the rapid pace and direction of S&T 
worldwide. ONR initiated an effort in 2006 to integrate information and 
assessments of a range of communities along with the international S&T 
perspective and our own S&T programs to ensure we capitalize on the 
full range of opportunities as well as understand the emerging threats 
and capabilities outside of the United States. These communities come 
together on a quarterly basis to discuss specific S&T topics of naval 
relevance and ensure that our S&T investment is focused and paced 
accordingly.
    Finally, the mix of Research Areas within the D&I portfolio is 
adjusted as new Naval needs, emerging discoveries, make ``new ideas'' 
more feasible. Our list of emerging areas for investment is adjusted to 
reflect the shifting set of adversaries, threats and global technology 
trends.
    This philosophy of ``breadth'' in investments coupled with the 
``reach'' to global communities allows Naval S&T the capacity to both 
anticipate and respond to technology surprise.
    Mr. Smith. The DOD S&T Program investment strategy should balance 
the development of (a) technological countermeasures to perceived 
future threats, (b) technologies to create options for U.S. forces, and 
(c) technologies to shape our enemies' options. Could you provide some 
examples of investments you are making in each category and could you 
please discuss your vision for the appropriate distribution of 
investments for each category?
    Admiral Landy. The three stated components of the DOD S&T Program 
investment strategy are certainly fundamental to a sound S&T portfolio 
but there are additional factors that influence program priorities and 
decisions:

      <bullet>  Technologies to address high priority, short term needs 
that emerge from our engaged forces worldwide

      <bullet>  Investments that provide technology options for Navy 
and Marine Corps capabilities

      <bullet>  Investments to guard against technological surprise

      <bullet>  Technologies for affordability, maintainability, and 
reliability

      <bullet>  Investments to reduce acquisition program risk and cost

      <bullet>  Investments to ensure the future health of the 
scientist and engineer workforce in S&T areas critical to DOD

    Since the three components from the question are not mutually 
exclusive, and the additional factors above must also be taken into 
consideration, it would be difficult to assign a numerical percentage 
as a strategic goal for the DON. In fact, most DON S&T programs would 
readily support two and some all three of the components. Nonetheless, 
the DON regards each to be of equal merit for developing Naval S&T 
program priorities and to ensure future Naval warfighting dominance 
against envisioned and potential threats.

    (a) Technological countermeasures to perceived future threats:

    Cyberspace/Cyberwarfare: DOD is faced with increasing level and 
sophistication of hostile cyber activities and must be able to fight 
through successful attacks on our data, systems, and networks. DON 
programs in information assurance and anti-tamper are geared to ensure 
high assurance software-enabled systems that are secure, affordable, 
sustainable, and interoperable.
    Electronic Warfare: The S&T objectives in EW are to explore and 
develop new and innovative approaches, concepts and technology to 
address near and far term emerging threats to Naval platforms and 
personnel. More specifically, to ensure naval platforms can rapidly 
detect, identify, and classify electronic emissions, to develop 
effective countermeasures to advanced infrared and focal plane array 
technology, to develop effective countermeasures to advanced radar 
waveforms and modulation techniques, and to develop reduced size/
weight/power/cost of EW components.

    (b) Technologies to create options for U.S. forces

    Distributed sensor networks: Persistent, distributed, networked 
sensors in all domains will ensure the broadest range of warfighting 
options available to the fleet and force commander. Unambiguous and 
comprehensive assessment of the battlespace will ensure unhindered 
access to denied areas while putting enemy forces at risk.
    Lightening the load for the Marine: Current individual combat 
Marine loads vary from 97 to 135 pounds versus a recommended maximum of 
50 pounds. Considerable information based on current combat operations 
indicates heavier loads severely reduce Marine effectiveness on long 
patrols, during close-in urban combat, and other adverse situations. 
S&T initiatives will treat the Marine as a system to develop 
improvements in combat load, ergonomics, power generation, nutrition 
and fatigue management to improve Marine performance and enable 
tailorable equipment packages.

    (c) Technologies to shape our enemies' options

    Electromagnetic (EM) Rail Gun: The EM Rail Gun uses electromagnetic 
energy instead of chemical propellants to propel a projectile farther 
and faster than any preceding gun. The rail gun offers the potential 
for a transformational solution for volume fires and time-critical 
strike.
    Speed of Light Weapons: The threats to Naval forces in the open 
ocean and littoral regions include high-g cruise missiles, aircraft, 
high-speed patrol craft, jetskis, and floating mines. Current defensive 
systems require kinetic kill projectiles (bullets and missiles) all of 
which involve a finite time of flight to destroy the threat, are 
subject to countermeasures, and require a large storage magazine. The 
Navy Free Electron Laser (FEL) will allow near instantaneous engagement 
and destruction of the full range of current and projected surface and 
air threats while providing an unlimited magazine.
    Mr. Smith. The U.S. Special Operations Command FY09 S&T request is 
around $65 million this year which includes $11 million in a new area 
designated for SOF Information and Broadcast Systems advanced 
Technology. Can you briefly describe how the Special Operations S&T 
requirements fit into the overall DOD S&T planning process? Will we 
continue to see the SOF S&T budget grow to meet their unique mission 
challenges?
    Admiral Landy. The Office of Naval Research (ONR) is continually 
discussing and leveraging Naval Science and Technology (S&T) efforts 
with the U.S. Special Operations Command. While ONR coordinates on 
these S&T investments, it has no input into how they devise and plan 
their budget. ONR defers to the U.S. Special Operations Command in 
order to provide a response to this question.
    Mr. Smith. Within the next year or so, several defense bases will 
begin closing and various activities will begin re-alignment including 
research and development activities within the defense laboratories. 
One of the greatest impacts of BRAC is loss of talented workforce. 
Certain key folks may not wish to uproot their families to move to 
another state. How will the affects of BRAC (workforce and others 
issues) impact your ability to provide the best capabilities for our 
warfighters? What mechanism have you put in place to minimize the 
potential impact?
    Admiral Landy. The major 2005 Defense Base Closure and Realignment 
(BRAC) Commission recommendation impacting research and development 
activities and Navy laboratories was the creation of a Naval Integrated 
Weapons and Armaments (W&A) Research, Development & Acquisition, and 
Test & Evaluation (RDAT&E) Center, and realignment of W&A, RDAT&E 
functions, with some exceptions, to NAWC China Lake. The most 
significant impacts of this recommendation will be felt at: Naval 
Surface Warfare Center (NSWC) Crane, IN; NSWC Indian Head, MD; Naval 
Air Station Patuxent River, MD; Naval Base Ventura County (NBVC) Point 
Mugu, CA; Naval Weapons Station (NWS) Seal Beach, CA and NSWC Dahlgren, 
VA. This recommendation represents the bulk of the BRAC technical 
consolidations impacting Navy activities.
    This recommendation enables technical synergy, and positions the 
Department of the Navy to exploit center-of-mass scientific, technical 
and acquisition expertise with weapons and armament Research, 
Development & Acquisition that resided at ten locations into the one 
Integrated RDAT&E site. The Office of Naval Research (ONR) believes 
these BRAC consolidations will improve our ability to deliver 
capability to the warfighters. Although there may be some loss of 
senior expertise, the center-of-mass will allow for collaboration and 
thus have a multiplier effect. ONR anticipates that any loss will be 
addressed through the use of planned successions and targeted 
recruitments. The use of retention bonuses and recruiting bonuses and 
other hiring flexibilities, approved by Congress and implemented at the 
technical laboratories will be fully utilized to ensure the required 
expertise is available.
    Mr. Smith. The mission of the Military Critical Technologies 
Program (part of the International Technology Security (ITS) office in 
DDR&E) is, in part, to identify technologies which contribute to, or 
have a potential to threaten, U.S. national security and to evaluate 
trends which might affect the availability of such technology. In 
addition, each of the services has Industrial Base Planning funds, to 
conduct studies of the health of the industrial base and to determine 
whether or not the industrial base continues to be able to provide 
military critical technologies. In the Office of the Secretary of 
Defense, the Industrial Policy office also conducts studies to ensure 
technological capabilities are sustained in the industrial base. 
Finally, the Manufacturing Technology program also seeks to improve the 
technological capabilities of the DOD industrial base. a. How are your 
Industrial Base Planning activities coordinated with those of the DUSD 
(Industrial Policy)? b. How are your Industrial Base Planning 
activities coordinated with your Manufacturing Technology programs?
    Admiral Landy. a. The Office of Naval Research does not have 
responsibility for Industrial Base Planning. ASN (RDA) is DUSD 
(Industrial Policy's) primary interface for matters of naval industrial 
policy.
    b. For the Navy Manufacturing Technology (ManTech) Program, 
strategic planning is driven by the Navy's current acquisition plan and 
priorities. Currently, the ManTech Program is focused on shipbuilding 
affordability for four primary platforms the VIRGINIA Class Submarine, 
CVN 21, DDG 1000, and the Littoral Combat Ship (LCS).
    The ManTech Program coordinates on an ad-hoc basis with Deputy 
Under Secretary of Defense (Industrial Policy) when it makes sense. As 
an example, Navy ManTech jointly funded an industrial base study in 
2007 which focused on the mid-tier shipyards, analyzing shipbuilding 
technology and capabilities in nine mid-tier U.S. shipyards and five 
international shipyards. The principal output is a list of proposed 
actions for individual shipyards, industry as a whole, and the 
Department of Defense that will improve the performance of the U.S. 
shipbuilding enterprise.
    Mr. Smith. A recent DSB study on the Manufacturing Technology 
program recommended creating a Basic Research account for ManTech. The 
Navy already has a Manufacturing Science program. Do you agree with the 
DSB's recommendation? How would such a Basic Research effort within the 
ManTech program support the program's mission?
    Admiral Landy. The Defense Science Board (DSB) study on 
Manufacturing Technology discusses the value of basic research in 
manufacturing. The report cites the return on even a modest investment, 
notes the small scale of the current investment--much less than 1% of 
all Department of Defense basic research funds, and mentions that 
several American universities have the capacity to conduct world-class 
manufacturing research.
    We agree that a basic research program in manufacturing is valuable 
and should invest in disruptive science and technology, focusing on new 
scientific understanding of the control of physical processes for 
production. The DSB cited nanotechnology as an example disruptive 
technology. Nanotechnology creates new production capabilities and in 
some cases new alternatives that provide more potential than existing 
capabilities. ONR has a large investment in nanotechnology at the Naval 
Research Laboratory. This effort is focused on developing the ability 
to affordably fabricate structures at the nanometer scale that will 
enable new approaches and processes for manufacturing novel, more 
reliable, lower cost, higher performance and more flexible electronic, 
magnetic, optical, and mechanical devices.
    The Navy's current manufacturing science program is focused on 
exploring potential disruptive technologies known as direct digital 
manufacturing (DDM).

    The transformative aspects of DDM systems include:

      <bullet>  on-demand production and repair of parts and components 
at point-of-use,

      <bullet>  mass-customization,

      <bullet>  affordable small job lots,

      <bullet>  short production cycle at low-cost, and

      <bullet>  real-time quality control.

    The Navy manufacturing science program supports the naval science 
and technology strategy focus area for Affordability, Maintainability, 
and Reliability.
    Mr. Smith. From an S&T perspective, which do you perceive as the 
greater threat to national security and to our military forces--endemic 
infectious diseases, such as influenza or HIV, or weaponized bio-terror 
agent, such as Plague? That is, which represents the greater threat and 
the greater S&T challenge?
    Admiral Landy. Endemic infectious diseases are more common, are as 
deadly as weaponized bio-terror agents, and may present a greater 
challenge to S&T because of their ability to constantly change and 
evade the vaccines and drugs developed to counter them. Influenza and 
malaria are just two examples. There are also numerous endemic agents, 
such as dengue and most bacteria and viruses causing gastroenteritis, 
that present a formidable S&T challenge, and for which we have not yet 
developed effective countermeasures even after many years of aggressive 
research and development. However, as the post 9/11 anthrax letter 
mailings have demonstrated, the threat of a deliberate release of bio-
terror agents is real, and our national security requires a robust S&T 
effort to ensure the availability of strategies to mitigate the threat. 
Complicating bio-terror agent defense is the fact that they can be 
deliberately engineered to evade existing countermeasures. Thus, 
although the threat of infection with a weaponized bio-terror agent 
such as anthrax may be lower than with an endemic infectious disease 
agent, focusing exclusively on one of these agents leaves us vulnerable 
to the other.
    Mr. Smith. Current DOD and service laboratory and research, 
development, and engineering center facilities are located in a large 
number of locations. Many of these facilities are aging and either 
poorly equipped or the equipment is out of date. What is your 
assessment of the DOD science and technology infrastructure? What 
measures are needed and what measures are being taken to maintain the 
DOD science and technology infrastructure required to support the 
discovery and development of advanced technologies for the Department 
of Defense?
    Admiral Landy. In 2008, the Navy Research Laboratory (NRL) 
completed a Corporate Facilities Investment Plan that provides 
strategic direction for the expenditure of laboratory overhead and 
MILCON funds to renovate spaces to meet its evolving R&D needs in the 
10-15 year time frame. Primarily through its investment of overhead 
funds, NRL has been able to maintain its status as a world-class 
laboratory. Unfortunately, that solution is not sustainable in the long 
term.
    Working Capital Fund laboratories manage their own Capital 
Investment Program (CIP) for infrastructure revitalization. The CIP 
allows the use of ``internal'' (vice specific appropriated) funds to 
revitalize infrastructure.
    Mr. Smith. In previous years, Congress has enacted a number of 
pilot demonstration programs to provide more flexibility in the hiring 
practices, management, and conduct of the science and technology 
program in selected DOD agencies and the military department 
laboratories and research, development, and engineering centers. Have 
these authorities been useful? What are some of the challenges with 
implementing these authorities?
    Admiral Landy. The laboratory personnel demonstration projects have 
demonstrably improved the ability of the laboratories to meet their 
mission--and at the same time pioneer new concepts of personnel 
management for the rest of the Department. Using the authorities 
granted by Congress in the demonstration projects, defense laboratories 
have been able to continue to both successfully compete for and retain 
top talent. The flexibility to offer more competitive compensation has 
greatly improved the ability to compete for top talent and the linkage 
of pay to performance has improved retention of top performers.
    The greatest challenge has been how to implement these authorities 
in such a manner that they maximize the benefits without greatly 
increasing supervisory workload or negatively impacting motivation for 
any portion of the work force. This requires development of defendable 
policies and procedures and thorough education of the work force on 
exactly how they will be implemented. The other issue has been that 
different authorities granted to the different laboratories complicates 
the movement of personnel across the laboratories. Consistent with NDAA 
2008, using the shared flexibilities now allowed will alleviate the 
perceived inequities.
    Mr. Smith. RADM Landay, there has been a proliferation of 
technology transition programs managed within OSD (S&T). For example, 
the Joint Concept Technology Demonstration (JCTD), Joint 
Experimentation, the Defense Acquisition Executive the Quick Reaction 
Fund, the Combating Terrorism Technology Task Force (CTTTF), the 
Technology Transition Initiative, the Foreign Comparative Test Program, 
and the Defense Acquisition Challenge Program. This does not include 
service specific technology transition and rapid acquisition programs. 
Yet, technology transition remains a perpetual challenge for the S&T 
community. a. What do you see as your top two technology transition 
challenges? b. Since 2001, many rapid technology development and 
fielding efforts have been put in place across OSD and the military 
departments. What steps have you taken to ensure that lessons learned 
from these rapid processes are being captured and institutionalized, as 
appropriate? c. Many of the efforts to rapidly transition technologies 
to the operational community to support the War on Terrorism have 
resulted in both developmental and operational test and evaluation of 
systems being conducted in theater. How is the S&T community collecting 
feedback from theater to ensure the appropriate improvements in 
capabilities are made and to also ensure that we don't continue to 
field systems with the same problems or limitations? d. What is your 
specific role at acquisition milestone decisions, with respect to 
Technology Readiness Assessments? How has this role changed in the last 
2-3 years or how do you envision it changing in the future? e. What 
steps should the S&T community be taking to ensure that technologies 
identified as ``critical'' for major acquisition programs, are in fact 
sufficiently mature at the Systems Design and Demonstration (SDD) 
milestone?
    Admiral Landy. a. The top two technology transition challenges are 
(1) widespread closed/proprietary system designs and (2) the frequent 
encountering of a gap of as much as two years or more between 
completion of S&T and the initiation of an acquisition program 
contract. The first of these might well be addressed by the adoption by 
the DoN of an aggressive policy implementing an open system 
architecture (OSA) design approach in all of our acquisition programs. 
Without OSA we risk limiting the development process for many 
procurements to large systems houses, bidding against one another in 
ultimately a winner take all competition. The OSA design model, if done 
in particular in conjunction with an engaged Government engineering 
workforce, could enable the selection by potentially a better informed 
program manager of the best parts of the competing prototypes in the 
final product to be procured rather than having to select the overall 
single best value from the two prototypes. Furthermore, OSA development 
could enable engagement in the development process by a broader segment 
of industry since smaller and/or non-traditional suppliers might 
provide competitive proposed solutions for parts of the system being 
procured as opposed to having to have a viable, complete system 
solution. Strictly from a standpoint of inserting new technology into 
existing or under development systems, the OSA model is perceived as 
greatly enabling competitive innovations to be much more readily and 
affordably inserted into systems that might otherwise be locked down by 
a proprietary architecture controlled by one industrial house. The 
definition of open systems architecture, and Government owned interface 
standards, for a system can enable truly competitive refresh of parts 
or all of a system throughout its service life especially if there is a 
Government engineering team capable of performing, or at the very 
least, evaluating the integration and performing the test effort.
    The second challenge is due to the risk averse culture imposed on 
our acquisition workforce. The acquisition program manager, and his/her 
related resource sponsor are generally reluctant to identify funding 
for transition of an inherently risky S&T product, knowing that S&T 
failure to complete successfully places the programmed acquisition 
funds at risk. The perceived prudent response is to delay programming 
of transition funding until such time as the S&T product is nearly 
successfully completed. In this case, the planning and programming lead 
time can introduce as much as a two year gap between completion of the 
S&T development and initiation of higher category transition funding. 
Delays in competing and award of an acquisition contract can add 
another year to this gap. ONR works closely with acquisition PMs and 
with their resource sponsors to keep them closely informed of the risk 
level of ongoing S&T programs. This interplay can lead to some 
reduction in the transition time gap. We have, moreover, put forth 
requests in the past for legislative changes that could enable 
reduction of some of the delay, normally associated with the 
acquisition contract competition and award, by allowing (legislative 
relief required) inclusion of an option on an S&T contract (initiated 
by either BAA or RFP) for further, prototype, development by an 
acquisition PM with acquisition funds. This latter approach could cut 
as much as a year off of the acquisition cycle and need not supplant 
the requirement for competitive award of any follow-on production 
contract.
    b. The Office of Naval Research (ONR) has responsibility within the 
Department of the Navy (DoN) for management of many of these programs. 
We work closely with Office of the Secretary of Defense Director of 
Defense Research and Engineering (DDR&E) in identifying best practices 
across the military departments and are partners with OSD and the other 
services in a Technology Transition Executive Steering Group where 
these best practices are shared and process improvements are 
identified. We have run several Lean Six Sigma events aimed at both 
streamlining the process used in these programs as well as in better 
connecting with warfighter inputs to ensure that the highest priority 
products are selected.
    c. ONR works closely with the warfighters and has had science and 
technology (S&T) members in theater for operational demonstrations of 
critical technologies. ONR requests and receives debriefs from the 
warfighters on the operational suitability and performance of S&T 
products being evaluated in theater.
    d. The Chief of Naval Research has the responsibility within the 
DoN for the conduct of Technology Readiness Assessments (TRA) and the 
certification of Technology Readiness Levels for major acquisition 
programs. This has not changed over the last several years, nor is any 
change contemplated.
    e. By the time of a TRA assessment it is too late in the process 
for the S&T community to address any shortfalls in the technology 
maturity of critical technology elements of a system under development. 
Early coordination between the acquisition community and the S&T 
community is required to avoid such problems. Recent developments, such 
as the assignment of Chief Technology Officer positions in the DoN 
Systems Commands have done a great deal to increase the level of 
communications required to avoid such problems and is expected to work 
to minimize them greatly in the future. See also notes in (a) above.
    Mr. Smith. In complex irregular warfare operations, technological 
superiority (big platforms) may not be an effective force multiplier. 
Instead, ``soft'' skills, such as languages, cultural awareness, 
information operations/psychological operations, and civil affairs may 
be required. a. How can technology help the U.S. military rapidly 
acquire the ``soft'' skills it needs to be effective in irregular 
warfare operations? b. How does technological superiority fit within 
today's threat environment?
    Mr. Jaggers. The Air Force recognizes the value of ``soft'' skills 
in addressing today's irregular and asymmetrical threat environment. 
Within its Science and Technology (S&T) Program, the Air Force has been 
researching and developing representations of human, social, culture, 
and behavior (HSCB) to determine their effects on aerospace operations. 
The intent of this research is to understand the perceptual and 
cognitive mechanisms used in an enemy's decision making process. The 
objective is to provide Airmen with the decision-aids, models, and 
simulations needed for planning and executing effective air operations. 
Combining these ``soft'' skills with modeling and simulation 
technologies will enable better forecasting of where conflict is most 
likely to occur, allowing more time to consider options and possibly 
increasing the chances that conflict might be prevented. The deeper 
understanding of enemy intent gained by identifying what aspects of 
HSCB are pertinent to military operations and developing capabilities 
to rapidly collect, exploit, and update this information will provide 
Airmen with the ability to act swiftly and decisively. ``Soft'' skills 
will not replace the need for technological superiority, but they can 
help reduce uncertainty in today's threat environment and enable our 
decision makers to respond with appropriate force.
    Mr. Smith. The DOD S&T Program is chartered, in part, to ensure the 
Department avoids technological surprise. Yet some may argue that DOD 
has been technologically surprised by IEDs, EFPs, and cyber warfare. 
What efforts does your organization undertake to avoid technological 
surprise? How are these different than they were five years ago?
    Mr. Jaggers. The Air Force maintains its technological superiority 
and adapts to address the new security environment of unconventional 
and non-traditional threats that faces us by continuing to rebalance 
and focus our core S&T competencies in response to these threats. The 
primary difference between now and five years ago is that we've 
modified the traditional Air Force ``kill chain'' of Find, Fix, Track, 
Target, Engage, and Assess to read Anticipate, Find, Fix, Track, 
Target, Engage, and Assess Anything, Anywhere, Anytime and have adopted 
this as our S&T vision to aid in focusing our efforts as we adapt to a 
new world environment. For example, we shifted investments in 
traditional areas to support the global war on terror by increasing 
emphasis in universal situational awareness as part of our Air Force 
tech vision to anticipate enemy actions. The goal is to develop a 
layered and flexible sensing architecture that responds to the 
Commander's intent by anticipating, detecting, continuously tracking, 
identifying, and precisely locating high value difficult targets. One 
area of particular interest and increased investment is the use of bio-
taggants that could revolutionize our ability to track weapons of mass 
destruction around the globe. As previously mentioned, the Air Force 
also recognizes the value of ``soft'' skills in addressing today's 
threat environment and, through such efforts as those in the areas of 
developing representations of human, social, culture, and behavior to 
better understand the enemy's decision making process, we should be 
better able to avoid technological surprise. By investing in a balanced 
S&T Program that addresses all Air Force mission areas, the Air Force 
is aggressively pursuing these and other high payoff technologies 
focused on countering the new threats of today, while modernizing our 
systems for tomorrow. These investments sustain the strong and balanced 
foundation of basic and applied research and advanced technology 
development needed to avoid technological surprise and support future 
warfighting capabilities.
    Mr. Smith. The DOD S&T Program investment strategy should balance 
the development of (a) technological countermeasures to perceived 
future threats, (b) technologies to create options for U.S. forces, and 
(c) technologies to shape our enemies' options. Could you provide some 
examples of investments you are making in each category and could you 
please discuss your vision for the appropriate distribution of 
investments for each category?
    Mr. Jaggers. The Air Force Science and Technology (S&T) Program 
investment strategy supports investments that provide countermeasures 
to future threats, options for our warfighters, and technologies to 
shape our enemies' options. Hypersonic technologies, such as the X-51, 
will provide stand off strike capabilities against the increasing depth 
of proliferating integrated air defense systems. Directed energy 
technologies will provide options for non-kinetic lethal (solid state 
laser) and non-lethal (active denial) capabilities needed by the 
warfighter in a variety of situations. Finally, Angel Fire is already 
providing 24x7, TiVo-like imagery to the warfighter impacting how our 
adversaries assemble, place, and detonate improvised explosive devices; 
increased investment in an all-weather, day-night persistent 
intelligence, surveillance, and reconnaissance technology called the 
GOTCHA Synthetic Aperture Radar will provide Angel Fire with even 
greater capabilities.
    The Air Force guiding principle for investment in its Science and 
Technology (S&T) Program is to ensure the portfolio is properly 
balanced between near- mid- and far-term needs. This, in turn, supports 
our ability to address perceived future threats, create options for the 
warfighter, and to also shape or limit our enemy's options as reflected 
in the examples above. The proportion of basic research to applied 
research to advanced technology development in the S&T portfolio is 
largely driven by history and has served us well. However, keeping the 
right balance is always a challenge and we continually assess the S&T 
portfolio to ensure the right investment is in place. To ensure the Air 
Force is well-positioned to counter perceived future threats, we have 
set a goal of no less than 15 percent of core S&T funding be available 
for far-term basic research efforts. To address the more near-term 
needs of ensuring our warfighter has the means to Anticipate, Find, 
Fix, Track, Target, Engage and Assess Anything, Anywhere, Anytime, the 
goal is to allocate no less than 30 percent of core S&T funding for 
advanced technology development efforts. Transitioning technology into 
fielded weapon systems quickly can help us maintain an advantage over 
our adversaries. Toward this end, the Air Force has established a 
Technology Transition Office. This office is responsible for Advanced 
Concept Technology Demonstrations/Joint Capabilities Technology 
Demonstrations (ACTDs/JCTDs) and is also placing greater emphasis on 
utilizing Office of the Secretary of Defense rapid reaction efforts, 
such as Technology Transition Initiatives, Quick Reaction Funds, etc. 
with an eye on improving Air Force participation and success rates.
    Mr. Smith. The U.S. Special Operations Command FY09 S&T request is 
around $65 million this year which includes $11 million in a new area 
designated for SOF Information and Broadcast Systems advanced 
Technology. Can you briefly describe how the Special Operations S&T 
requirements fit into the overall DOD S&T planning process? Will we 
continue to see the SOF S&T budget grow to meet their unique mission 
challenges?
    Mr. Jaggers. As the Air Force Science and Technology (S&T) 
Executive, I have no real visibility into the planning, programming, 
budgeting, or execution of the U.S. Special Operations Command and 
defer to the Office of the Secretary of Defense with regards to how 
their requirements fit within the overall Department of Defense S&T 
planning process and expectations for future funding.
    Mr. Smith. Within the next year or so, several defense bases will 
begin closing and various activities will begin re-alignment including 
research and development activities within the defense laboratories. 
One of the greatest impacts of BRAC is loss of talented workforce. 
Certain key folks may not wish to uproot their families to move to 
another state. How will the affects of BRAC (workforce and others 
issues) impact your ability to provide the best capabilities for our 
warfighters? What mechanism have you put in place to minimize the 
potential impact?
    Mr. Jaggers. The Air Force is working to minimize the effects of 
upcoming Base Realignment and Closure (BRAC) actions; however, 
preservation of our intellectual capital is a very real challenge that 
could impact to some degree on our ability to provide the best 
capabilities for our warfighters. Current efforts being pursued to 
reduce these impacts include proactive force shaping, active 
recruiting, and retention initiatives. Significant new hiring of mobile 
personnel (i.e., personnel willing to relocate) is needed to allow new 
employees to train under the mentorship of highly experienced 
individuals who do not plan on relocating. An aggressive recruiting 
campaign is also underway to bring in a targeted set of new employees 
with a balanced mix of experience to fill positions ranging from bench 
scientists to seasoned technology leaders. We are focusing on 
university recruiting events, scientific conferences, and professional 
society meetings to identify key individuals fitting the mission, while 
using various intern programs to bring in undergraduate, graduate, and 
post-doctoral students to meet mission needs.
    Mr. Smith. There has been a proliferation of technology transition 
programs managed within OSD (S&T). For example, the Joint Concept 
Technology Demonstration (JCTD), Joint Experimentation, the Defense 
Acquisition Executive the Quick Reaction Fund, the Combating Terrorism 
Technology Task Force (CTTTF), the Technology Transition Initiative, 
the Foreign Comparative Test Program, and the Defense Acquisition 
Challenge Program. This does not include service specific technology 
transition and rapid acquisition programs. Yet, technology transition 
remains a perpetual challenge for the S&T community. a. What do you see 
as your top two technology transition challenges? b. Since 2001, many 
rapid technology development and fielding efforts have been put in 
place across OSD and the military departments. What steps have you 
taken to ensure that lessons learned from these rapid processes are 
being captured and institutionalized, as appropriate? c. Many of the 
efforts to rapidly transition technologies to the operational community 
to support the War on Terrorism have resulted in both developmental and 
operational test and evaluation of systems being conducted in theater. 
How is the S&T community collecting feedback from theater to ensure the 
appropriate improvements in capabilities are made and to also ensure 
that we don't continue to field systems with the same problems or 
limitations? d. What is your specific role at acquisition milestone 
decisions, with respect to Technology Readiness Assessments? How has 
this role changed in the last 2-3 years or how do you envision it 
changing in the future? e. What steps should the S&T community be 
taking to ensure that technologies identified as ``critical'' for major 
acquisition programs, are in fact sufficiently mature at the Systems 
Design and Demonstration (SDD) milestone?
    Mr. Jaggers. Recognizing the importance of transitioning technology 
into fielded weapon systems in a timely fashion, the Air Force 
established a Technology Transition Office focused on developing and 
implementing policies to overcome transition obstacles and facilitate 
the transition of technology in support of new concepts, programs of 
record, and fielded systems. The following answers are provided with 
regards to your specific questions:

    a. The top two technology transition challenges facing the Air 
Force are codifying a strategic research and development plan and 
providing a sound pre-acquisition technical planning foundation to 
facilitate technology transition. There must be policies in place to 
address both development of technologies to support the Air Force's 
long-term strategic objectives and the transfer of these technologies 
into solid programs of record. Processes that include collaborative, 
early acquisition planning activities involving the Science and 
Technology (S&T), user, and acquisition communities are necessary to 
ensure each is familiar with and understands the potential of inserting 
promising technologies into planned or fielded weapon systems. A 
comprehensive programmatic and policy strategy across all 6.2 (applied 
research) through 6.7 (operational systems development) efforts is 
needed to ensure successful transition of technology and bridge the 
``valley of death.'' Our Technology Transition Office is currently 
integrating all transition assistance programs and creating seamless 
policy across laboratory technology development and product center 
acquisition systems engineering.

    b. As noted, the Air Force has established a Technology Transition 
Office that serves as a central focal point for addressing matters in 
this important area, thus creating a synergy in technology transition 
efforts that more efficiently captures and institutionalizes lessons 
learned, matches solutions to needs, and revitalizes requirements 
planning and technology maturation.

    c. The Air Force S&T community collects feedback from theater via 
our joint warfighting and intelligence operations. In addition, the Air 
Force Technology Transition Office is also directly involved with the 
warfighters through Joint Capabilities Technology Demonstrations and 
other rapid reaction programs, which provide additional insight into 
future capability needs, as well as lessons learned with regards to 
problems or limitations of fielded systems.

    d. Per Department of Defense Instruction (DODI) 5000.2, Operation 
of the Defense Acquisition System, and National Security Space 
Acquisition Policy 03-01, Guidance for DOD Space System Acquisition 
Process, the Office of the Deputy Assistant Secretary of the Air Force 
(Science, Technology and Engineering) is directly involved in 
Technology Readiness Assessments (TRAs) for Milestones B and C, and Key 
Decision Points B and C, respectively. This responsibility extends to 
maintaining and overseeing the Air Force TRA process, and reviewing and 
endorsing TRA findings when the Milestone Decision Authority is either 
the Component Acquisition Executive or the Defense Acquisition 
Executive. This role has changed considerably over the last two to 
three years, as the TRAs are becoming institutionalized within the Air 
Force and I only expect it to grow in importance as TRAs are solidified 
as a critical part of the systems development process.

    e. The S&T community's role in major acquisition programs past 
Milestone/Key Decision Point B is limited since current policy is for 
major acquisition programs to have their ``critical'' technologies at 
Technology Readiness Level 6 prior to Milestone/Key Decision Point B 
approval. However, some major Air Force acquisition programs are 
increasingly identifying technologies to be incorporated into future 
program blocks or upgrades at Milestone/Key Decision Point B, which the 
S&T community will help develop. In addition, the S&T community will 
most likely play a larger role in ``critical'' technologies as more 
major acquisition programs do a formal Milestone/Key Decision Point A.

    Mr. Smith. The mission of the Military Critical Technologies 
Program (part of the International Technology Security (ITS) office in 
DDR&E) is, in part, to identify technologies which contribute to, or 
have a potential to threaten, U.S. national security and to evaluate 
trends which might affect the availability of such technology. In 
addition, each of the services has Industrial Base Planning funds, to 
conduct studies of the health of the industrial base and to determine 
whether or not the industrial base continues to be able to provide 
military critical technologies. In the Office of the Secretary of 
Defense, the Industrial Policy office also conducts studies to ensure 
technological capabilities are sustained in the industrial base. 
Finally, the Manufacturing Technology program also seeks to improve the 
technological capabilities of the DOD industrial base. a. How are your 
Industrial Base Planning activities coordinated with those of the 
DUSD(Industrial Policy)? b. How are your Industrial Base Planning 
activities coordinated with your Manufacturing Technology programs?
    Mr. Jaggers. In response to question a., Air Force Industrial Base 
activities are worked in close coordination with the Office of the 
Deputy Under Secretary of Defense for Industrial Policy (DUSD(IP)). The 
Air Force coordinates Title I, Defense Priorities and Allocations 
System, activities through the Joint Industrial Base Working Group and 
participates on an ad hoc basis in Priorities and Allocation of 
Industrial Resources meetings led by DUSD(IP) to deconflict competing 
needs for limited national resources among the Services. In addition, 
the Air Force collaborates with other Office of the Secretary of 
Defense (OSD) organizations on Title ill and Title VII industrial base 
programs. In fact, the Air Force serves as OSD's Executive Agent for 
Title Ill, Defense Production Act, activities and works closely with 
the DUSD for Advanced Systems and Concepts (DUSD(AS&C)). In the case of 
Title VII, Committee on Foreign Investment in the United States, the 
Air Force works with the Defense Technology Security Administration by 
providing information to aid in determining whether the sale of U.S. 
firms to foreign entities may impact national security. In addition, 
the new Air Force Industrial Base Council (AFIBC) was formed to manage 
industrial base risks across the Air Force and to help guide industrial 
base investments in conjunction with DUSD(IP) studies to ensure 
technological capabilities are sustained in the industrial base. The 
AFIBC also provides support to the existing Department of Defense Space 
Industrial Base Council. Finally, the Air Force coordinates its 
Manufacturing Technology program with OSD and the other Services/
Defense Agencies as a member of the Joint Defense Manufacturing 
Technology Panel.
    In response to question b., with regards to coordination between 
the Air Force Industrial Base planning activities and its Manufacturing 
Technology program, the Air Force recognizes the close connection 
between these activities and responsibility for both lies with the 
Office of the Deputy Assistant Secretary of the Air Force (Science, 
Technology and Engineering).
    Mr. Smith. A recent DSB study on the Manufacturing Technology 
program recommended creating a Basic Research account for ManTech. The 
Navy already has a Manufacturing Science program. Do you agree with the 
DSB's recommendation? How would such a Basic Research effort within the 
ManTech program support the program's mission?
    Mr. Jaggers. The Air Force does not see a need to create a separate 
basic research program for Manufacturing Technology. Science and 
Technology (S&T) efforts in support of manufacturing technologies are 
pervasive across the S&T portfolio to include basic research. In 
addition, the Air Force is currently exploring the possibility of 
expanding its manufacturing technology basic research efforts by 
teaming a university with a contractor under the Small Business 
Technology Transfer program
    Mr. Smith. From an S&T perspective, which do you perceive as the 
greater threat to national security and to our military forces--endemic 
infectious diseases, such as influenza or HIV, or weaponized bio-terror 
agent, such as Plague? That is, which represents the greater threat and 
the greater S&T challenge?
    Mr. Jaggers. Medical research and development is centralized within 
the Defense Health Program. As the Air Force Science and Technology 
(S&T) Executive, I have no real insight into potential threats of a 
medical nature and defer to the Office of the Secretary of Defense with 
regards to whether endemic infectious diseases or the Plague represent 
the greater threat to our national security; however, the S&T 
challenges remain the same for all threats--proactively anticipating 
the use, countering an attack, and conducting forensics post-release of 
any biological agent into the homeland population.
    Mr. Smith. Current DOD and service laboratory and research, 
development, and engineering center facilities are located in a large 
number of locations. Many of these facilities are aging and either 
poorly equipped or the equipment is out of date. What is your 
assessment of the DOD science and technology infrastructure? What 
measures are needed and what measures are being taken to maintain the 
DOD science and technology infrastructure required to support the 
discovery and development of advanced technologies for the Department 
of Defense?
    Mr. Jaggers. Overall, Air Force Science and Technology research 
facilities are adequate to accomplish the mission. Maintaining or 
upgrading this infrastructure to support continued discovery and 
development of advanced technologies within the Department is primarily 
addressed within the Military Construction (MILCON) program--
requirements are identified and compete for funding. We also have the 
flexibility to utilize a small portion of our Research, Development, 
Test, and Evaluation funding to upgrade our laboratory facilities. 
While there are challenges in prioritizing MILCON requirements--
especially during a time of constrained budgets--the current process 
works and I do not believe additional measures are required to support 
a viable research program at this time.
    Mr. Smith. In previous years, Congress has enacted a number of 
pilot demonstration programs to provide more flexibility in the hiring 
practices, management, and conduct of the science and technology 
program in selected DOD agencies and the military department 
laboratories and research, development, and engineering centers. Have 
these authorities been useful? What are some of the challenges with 
implementing these authorities?
    Mr. Jaggers. The Air Force supports the Department of Defense's 
goal of one personnel system for its civilian workforce--the National 
Security Personnel System (NSPS); however, we also recognize the 
success the Air Force Research Laboratory (AFRL) has enjoyed in shaping 
its Scientist and Engineer (S&E) workforce through the flexibilities 
afforded by the Laboratory Personnel Demonstration System, commonly 
referred to as Lab Demo, and support AFRL's efforts while the current 
exemption remains in effect.
    The authorities currently in use at AFRL have been extremely 
effective in many areas to include: providing management with greater 
control of the S&E workforce; generating increased levels of 
contribution among employees; providing management with the ability to 
set pay competitively when hiring highly qualified new employees; 
simplifying personnel processes, such as position classification; 
delegating personnel authorities to the Lab Director to speed decision 
making; and providing a positive impact on Lab culture. While AFRL 
initially received no hiring flexibilities through its demonstration 
project authority, Section 1107 of the Fiscal Year 2008 National 
Defense Authorization Act allows any of the demonstration laboratories 
to use other available Lab Demo authorities, including hiring 
flexibilities.
    As AFRL and the other demonstration laboratories work with the 
Office of the Secretary of Defense (OSD) to develop a process for the 
laboratories to implement these authorities in a timely manner, the 
challenge lies in the sheer workload involved in developing proposals 
and vetting them through each of the laboratories, the Services, and 
OSD. They are also working with OSD on new initiatives that will enable 
the laboratories to continue to attract and retain much needed 
scientific experts.
    Mr. Smith. The mission of the Military Critical Technologies 
Program (part of the International Technology Security (ITS) office in 
DDR&E) is, in part, to identify technologies which contribute to, or 
have a potential to threaten, U.S. national security and to evaluate 
trends which might affect the availability of such technology. In 
addition, each of the services has Industrial Base Planning funds, to 
conduct studies of the health of the industrial base and to determine 
whether or not the industrial base continues to be able to provide 
military critical technologies. In the Office of the Secretary of 
Defense, the Industrial Policy office also conducts studies to ensure 
technological capabilities are sustained in the industrial base. 
Finally, the Manufacturing Technology program also seeks to improve the 
technological capabilities of the DOD industrial base. a. How are your 
Industrial Base Planning activities coordinated with those of the DUSD 
(Industrial Policy)? b. How are your Industrial Base Planning 
activities coordinated with your Manufacturing Technology programs?
    Mr. Jaggers. In response to question a., Air Force Industrial Base 
activities are worked in close coordination with the Office of the 
Deputy Under Secretary of Defense for Industrial Policy (DUSD(IP)). The 
Air Force coordinates Title I, Defense Priorities and Allocations 
System, activities through the Joint Industrial Base Working Group and 
participates on an ad hoc basis in Priorities and Allocation of 
Industrial Resources meetings led by DUSD(IP) to deconflict competing 
needs for limited national resources among the Services. In addition, 
the Air Force collaborates with other Office of the Secretary of 
Defense (OSD) organizations on Title III and Title VII industrial base 
programs. In fact, the Air Force serves as OSD's Executive Agent for 
Title III, Defense Production Act, activities and works closely with 
the DUSD for Advanced Systems and Concepts (DUSD (AS&C)). In the case 
of Title VII, Committee on Foreign hrvestment in the United States, the 
Air Force works with the Defense Technology Security Administration by 
providing information to aid in determining whether the sale of U.S. 
firms to foreign entities may impact national security. In addition, 
the new Air Force Industrial Base Council (AFIBC) was formed to manage 
industrial base risks across the Air Force and to help guide industrial 
base investments in conjunction with DUSD (IP) studies to ensure 
technological capabilities are sustained in the industrial base. The 
AFIBC also provides support to the existing Department of Defense Space 
Industrial Base Council. Finally, the Air Force coordinates its 
Manufacturing Technology program with OSD and the other Services/
Defense Agencies as a member of the Joint Defense Manufacturing 
Technology Panel.
    In response to question b., with regards to coordination between 
the Air Force Industrial Base planning activities and its Manufacturing 
Technology program, the Air Force recognizes the close connection 
between these activities and responsibility for both lies with the 
Office of the Deputy Assistant Secretary of the Air Force (Science, 
Technology and Engineering).
    Mr. Smith. The mission of the Military Critical Technologies 
Program (part of the International Technology Security (ITS) office in 
DDR&E) is, in part, to identify technologies which contribute to, or 
have a potential to threaten, U.S. national security and to evaluate 
trends which might affect the availability of such technology. In 
addition, each of the services has Industrial Base Planning funds, to 
conduct studies of the health of the industrial base and to determine 
whether or not the industrial base continues to be able to provide 
military critical technologies. In the Office of the Secretary of 
Defense, the Industrial Policy office also conducts studies to ensure 
technological capabilities are sustained in the industrial base. 
Finally, the Manufacturing Technology program also seeks to improve the 
technological capabilities of the DOD industrial base. a. How are your 
Industrial Base Planning activities coordinated with those of the DUSD 
(Industrial Policy)? b. How are your Industrial Base Planning 
activities coordinated with your Manufacturing Technology programs?
    Dr. Killion. a. Army industrial base activities are coordinated 
most frequently with those of the DUSD (Industrial Policy) through 
regular staff contacts. Weekly and sometimes daily, staffs exchange 
questions and data in support of program managers and laboratories, as 
well as answering questions and developing policy in response to 
industry and congressional queries. Less frequently, the staffs meet in 
regular industrial base forums to discuss results of ongoing, more 
detailed studies and program efforts. Annually, the highlights of all 
of these efforts are reported to Congress in an OSD-prepared summary of 
industrial capability assessments. b. Army Industrial Base Planning 
activities are coordinated with our Manufacturing Technology efforts 
primarily at the government research laboratory level in support of 
both long range technology goals and shorter range program development 
activities. Critical technology events drive the development of weapons 
systems that lead to a key capability. These can originate in industry, 
in-house government labs, academia, or with international partners. The 
role of Army laboratories has been to act as clearing houses to ensure 
wide dissemination and coordination of technology efforts by: 1) 
collaborating with others; 2) evaluating performance of prototypes, 
including fixes for technical problems; 3) acting as consultants to 
contractors and to the Program Managers; and 4) acting as advisors to 
the Army to ensure a ``smart buyer'' capability.
    This QFR was answered by Steven R. Linke, Army Industrial Base 
Policy, SAAL-PA
    Mr. Smith. A recent DSB study on the Manufacturing Technology 
program recommended creating a Basic Research account for ManTech. The 
Navy already has a Manufacturing Science program. Do you agree with the 
DSB's recommendation? How would such a Basic Research effort within the 
ManTech program support the program's mission?
    Dr. Killion. No, the Army does not agree with the DSB's 
recommendation that a basic research account be created for ManTech. 
However, as manufacturing processes push the limits of scientific 
knowledge, basic research on manufacturing science becomes imperative 
and is included with the current basic research portfolio. For example, 
investments that we are making in the area of biotechnology, which 
include self-assembly of materials into microstructures, enables new 
classes of manufacturing processes that have the potential to 
revolutionize the efficiency of production and the performance of the 
resulting functional and structural materials.
    Mr. Smith. From an S&T perspective, which do you perceive as the 
greater threat to national security and to our military forces--endemic 
infectious diseases, such as influenza or HIV, or weaponized bio-terror 
agent, such as Plague? That is, which represents the greater threat and 
the greater S&T challenge?
    Dr. Killion. The S&T challenges posed by endemic infectious 
diseases and bio-terrorism are relatively equal. Plague and other 
potentially weaponized disease-producing organisms are often naturally 
occurring pathogens. The developmental pathways for medical 
countermeasures (drugs or vaccines) and diagnostics are similar for a 
disease-causing organism whether it is acquired as a consequence of 
natural exposure or as the result of the deliberate release in a bio-
terror event (e.g., plague occurs in nature and is weaponizable). With 
regard to which represents the greater threat, certainly in the case of 
current operations, endemic disease contributes more to the lack of 
availability of Soldiers to perform operations than engineered 
biothreats.
    Mr. Smith. Current DOD and service laboratory and research, 
development, and engineering center facilities are located in a large 
number of locations. Many of these facilities are aging and either 
poorly equipped or the equipment is out of date. What is your 
assessment of the DOD science and technology infrastructure? What 
measures are needed and what measures are being taken to maintain the 
DOD science and technology infrastructure required to support the 
discovery and development of advanced technologies for the Department 
of Defense?
    Dr. Killion. From a review of the Army Headquarters Installation 
Status Report greater than 82% of the laboratory facilities have either 
a green or amber condition code that indicating that they are capable 
of meeting the laboratory requirements. Legislation such as Section 
2804 of the National Defense Authorization Act for Fiscal Year 2008 
(NDAA FY08) (PL 110-181) that amended 10 U.S.C. Sec. 2805, and 
authorizes the Secretary of the Army to obligate and expend funds ($2M-
$4M) for the revitalization and recapitalization of Army Laboratories 
through unspecified minor military construction projects, also 
contributes to our ability to maintain our facilities to meet future 
research and development needs. The rising costs of construction, 
however, will likely diminish the buying power associated with this 
legislation and require increases in the thresholds. In addition, over 
the last 5 years, the laboratories have spent approximately $500M for 
capital equipment. In the long term, the Army must exploit all of the 
authorities granted by Congress and demonstrate their usefulness if we 
are to maintain a vibrant and effective S&T infrastructure. Traditional 
military construction processes are unlikely to maintain technological 
competitiveness and are difficult for the S&T community to compete in 
due to operational priorities.
    Mr. Smith. In previous years, Congress has enacted a number of 
pilot demonstration programs to provide more flexibility in the hiring 
practices, management, and conduct of the science and technology 
program in selected DOD agencies and the military department 
laboratories and research, development, and engineering centers. Have 
these authorities been useful? What are some of the challenges with 
implementing these authorities?
    Dr. Killion. The pilot demonstration programs have been extremely 
useful to the Army laboratories and research, development and 
engineering centers (RDEC). The programs have enabled the Army to 
retain the best science and engineering talent by allowing initiatives, 
such as pay banding and streamlined hiring authority to enhance 
recruiting and reshaping of the workforce. These initiatives are unique 
to each laboratory allowing the maximum management flexibility for the 
laboratory directors and allowing them to be competitive with the 
private sector. The primary challenge with implementation of these 
authorities has been ensuring that the authority is delegated down to 
the laboratory/RDEC directors such that they maintain their management 
flexibility.
    Mr. Smith. Dr. Killion, there has been a proliferation of 
technology transition programs managed within OSD (S&T). For example, 
the Joint Concept Technology Demonstration (JCTD), Joint 
Experimentation, the Defense Acquisition Executive the Quick Reaction 
Fund, the Combating Terrorism Technology Task Force (CTTTF), the 
Technology Transition Initiative, the Foreign Comparative Test Program, 
and the Defense Acquisition Challenge Program. This does not include 
service specific technology transition and rapid acquisition programs. 
Yet, technology transition remains a perpetual challenge for the S&T 
community. a. What do you see as your top two technology transition 
challenges? b. Since 2001, many rapid technology development and 
fielding efforts have been put in place across OSD and the military 
departments. What steps have you taken to ensure that lessons learned 
from these rapid processes are being captured and institutionalized, as 
appropriate? c. Many of the efforts to rapidly transition technologies 
to the operational community to support the War on Terrorism have 
resulted in both developmental and operational test and evaluation of 
systems being conducted in theater. How is the S&T community collecting 
feedback from theater to ensure the appropriate improvements in 
capabilities are made and to also ensure that we don't continue to 
field systems with the same problems or limitations? d. What is your 
specific role at acquisition milestone decisions, with respect to 
Technology Readiness Assessments? How has this role changed in the last 
2-3 years or how do you envision it changing in the future? e. What 
steps should the S&T community be taking to ensure that technologies 
identified as ``critical'' for major acquisition programs, are in fact 
sufficiently mature at the Systems Design and Demonstration (SDD) 
milestone?
    Dr. Killion. a. For transition of technology to traditional 
programs of record, the primary challenges are as follows. First, the 
technology developer must provide evidence of technology maturity and 
usefulness of the technology to satisfy a system requirement. Second, 
the acquisition program manager must have a need for the technology and 
a schedule and resources to support transitioning the technology. For 
the types of rapid transition programs mentioned above, the challenges 
are different. First, the technology must demonstrate sufficient 
robustness, safety, and efficacy to ensure that it is useful to 
Soldiers in the operational environment. Second, there must be 
sufficient documentation and program support to prepare Soldiers to use 
the system and to sustain its operation in theater.
    b. The Army's Director for Technology represents Army interests in 
all of the OSD managed technology transition improvement and 
acceleration programs and processes. We provide input to the OSD led 
programs and maintain a close dialogue with OSD to obtain feedback on 
what processes work and/or how technology transition can be improved. 
In addition, my office maintains close working relationships with the 
technology developing commands to obtain feedback from the Lab's and 
Research Development and Engineering Center's efforts supporting 
fielded systems and the limited fielding of advanced technology. In 
this way we learn about issues related to new technology applications 
in current operations. Further, we have initiated a new effort to send 
personnel from my office to the Theater of Operations to provide direct 
assessments of issues related to fielding new technology.
    c. The S&T community obtains feedback from fielded systems testing 
and supportability issues through their matrix support to the program 
managers of those systems who rely upon Labs and Research, Development 
and Engineering Centers to provide solutions to unforeseen problems. 
Additionally, the Army has formal processes to assess the performance 
of systems accelerated to the theater of operations and make decisions 
regarding their potential to become formal acquisition programs. For 
example, Research Development and Engineering Command (RDECOM) Labs and 
Centers participate in a weekly Current Operations Support Secure Video 
Teleconference and the theaters' Technology Solutions Secure Video 
Meeting. During these forums, representatives from RDECOM Labs and 
Centers, from the Navy and Air Force, and S&T advisors in-theater 
interface with warfighters in Iraq and Afghanistan to discuss materiel 
issues, including the performance and evaluations of recently fielded 
technologies. The Army Test and Evaluation Command (ATEC) is also major 
participant in forums that link the Army's Current Operations Support 
community with ATEC's Forward Operational Assessment Teams to ensure 
the technologies being evaluated meet operational needs, are 
supportable and safe. These operational assessments by theater provide 
valuable feedback to the developmental, acquisition and requirements 
generation communities. Issues and information from these venues, and 
others with the Training and Doctrine Command (TRADOC), seek to improve 
upon existing technologies and to ensure that future systems are not 
fielded with the similar problems or limitations.
    d. My role in the acquisition milestone decisions is to evaluate 
program managers' technology maturity assessments and provide an 
independent certification of technology readiness to the milestone 
decision authority at Milestone B and Milestone C. This responsibility 
was established within the DOD 5000 instructions in 2002. Over the last 
several years, the major change has been the increased demand for 
application of this process across the full range of acquisition 
programs. For the future, I anticipate that the range of assessments 
that are required will expand (e.g., manufacturing readiness, software 
readiness, and integration readiness) and that we will be asked to make 
these assessments ever earlier in the concept development and system 
design and development process. There is concern that the growing 
numbers of assessments levied on acquisition programs may begin to 
impede progress vice facilitate technology transition. Our challenge is 
always to provide the appropriate amount of oversight without impeding 
the work of our acquisition community in providing capabilities to the 
Warfighter.
    e. Since the requirement was established to conduct independent 
technology assessments, we have gained much experience in conducting 
these assessments and the program managers have implemented rigorous 
steps to perform their own technology maturity assessments. I believe 
that our current procedures are reasonably effective in identifying 
essential issues related to maturity of critical technology elements. 
An enduring issue is the availability of relevant data to substantiate 
claims as to the level of technology maturity. The S&T community must 
continue to work with the PEO/PMs to ensure that relevant and 
sufficient data are available from laboratory experimentation, field 
assessments, and formal testing. In addition, there needs to he clear 
documentation of the plans for technology development and demonstration 
supporting the program. In 2006, we established technology transition 
agreements as the authoritative document signed by both the technology 
developer and the acquisition program manager to align technology 
transition plans with systems development and demonstration schedules.
    Mr. Smith. Dr. Killion, what enhanced capabilities do flexible 
electronics bring to future ARMY/warfighter systems and what steps are 
the ARMY taking to incorporate this technology?
    Dr. Killion. Flexible electronics may enhance future Army/
Warfighter systems by enabling novel form-factors, for example, curved 
focal plane arrays and sensors conformed to irregular shapes to more 
easily facilitate integration of electronics; larger size arrays, for 
example, sensor arrays with increased surface area giving enhanced 
capabilities for chemical and biological sensors; and lightweight and 
rugged electronics, for example, displays, sensors and power 
components.
    The Army is currently examining the business case for investing in 
technologies to enable flexible electronics. We are already investing 
in related technologies through the Flexible Display Center (FDC) at 
Arizona State University and the FlexTech Alliance, formerly known as 
the United States Display Consortium. Long term visions for flexible 
electronics require improvements in thin film transistors (and related 
electronic elements) with improved operating reliability for advanced 
circuitry, sensors, focal plane array detectors, and drive electronics. 
The FlexTech Alliance, a consortium comprised of industry members, is 
enabling materials processing and tools for flexible displays and 
broadening the scope of application to flexible electronics.
    Mr. Smith. Dr. Killion, how does the S&T community synchronize the 
plans for projected systems to provide future force bandwidth needs to 
ensure they are sufficient to accommodate the capabilities of the 
systems they develop?
    Dr. Killion. Army Science and Technology works closely with the 
system developers throughout the system lifecycle. The Army S&T 
community continuously searches for better ways to meet program 
requirements for improved bandwidth, information throughput and 
spectrum usage. As new technologies emerge, the Army S&T community 
matures and demonstrates the technologies in coordination with the 
system developers and works closely to transition the technology for 
their use. Coincident with the synchronization plans, the Army S&T 
community is conducting network science research that will allow better 
prediction of network bandwidth needs and provide tools to optimize the 
network performance.
    Mr. Smith. In complex irregular warfare operations, technological 
superiority (big platforms) may not be an effective force multiplier. 
Instead, ``soft'' skills, such as languages, cultural awareness, 
information operations/psychological operations, and civil affairs may 
be required. a. How can technology help the U.S. military rapidly 
acquire the ``soft'' skills it needs to be effective in irregular 
warfare operations? b. How does technological superiority fit within 
today's threat environment?
    Dr. Killion. a. Technology can aid the military both in providing 
capabilities that supplement the Soldiers' abilities as well as in more 
rapidly and effectively preparing the Soldier for operating in such 
environments. For example, in terms of supplementing the Soldiers' 
abilities, the Army has worked with DARPA on language translation 
capabilities that reduce the need for the Soldier to have specific 
language skills. In addition, the Army is developing battle command 
decision support tools that enable decision makers to more effectively 
plan and execute operations in irregular warfare environments, taking 
into account factors such as religious affiliations, ethnic 
considerations, economic influences, etc. On the preparation side, an 
example is research at the Institute for Creative Technologies, at the 
University of Southern California, that focused on developing highly 
realistic, immersive environments that allow the Soldier to rapidly 
acquire the knowledge and skills such as cultural awareness and 
negotiation techniques needed in irregular warfare operations.
    b. Even in irregular warfare environments, technological 
superiority is still a major factor in maintaining U.S. advantage and 
allowing our Soldiers to operate as efficiently and safely as possible. 
As an example, new sensor technologies have provided the commanders in 
theater with persistent surveillance/staring capabilities that allow 
continuous monitoring and tracking of threats across the battlefield. 
Additional technologies allow the surveillance information to be 
immediately communicated inside and outside of the theater for rapid 
response. Technologies such as lightweight armor for tactical vehicles, 
enhancements in situational awareness, non-lethal force application 
systems, and advanced training methodologies are just as relevant for 
irregular warfare as they are for traditional combat operations.
    Mr. Smith. The DOD S&T Program is chartered, in part, to ensure the 
Department avoids technological surprise. Yet some may argue that DOD 
has been technologically surprised by IEDs, EFPs, and cyberwarfare.What 
efforts does your organization undertake to avoid technological 
surprise? How are these different than they were five years ago?
    Dr. Killion. The challenges presented by IEDs, EFPs, and cyber 
warfare do not represent a technological surprise, with the possible 
exception of the scale in which they have manifested themselves.
    From internal and external expertise, outside/independent studies, 
international technology mining, periodic reviews, etc., the Army has 
identified areas with great potential for developing new extraordinary 
and disruptive capabilities for our Soldiers. The Army S&T community 
works closely with Army Capabilities Integration Center (ARCIC), within 
the Army's Training and Doctrine Command, Materiel Developers and 
various intelligence centers to understand current and future threats. 
Since the beginning of OEF and OIF, weekly teleconferences with S&T 
representatives from each theater provide firsthand experience and 
insights to the evolution of the threats. Through these exchanges the 
Army S&T community gains insights on threat migration, capability, 
proliferation, and helps guide investments or accelerations of 
technologies as appropriate. Furthermore, Army S&T supports rapid 
transition of countermeasure and protection programs to support 
material developer's efforts to reduce risk to the soldiers and 
increase capability against emerging threats.
    The greatest difference in the approach from five years ago is the 
increased interaction with the S&T representatives from the theaters 
that frame the research and development associated with the current 
threat. Another significant change is both the willingness and the 
speed with which technologies are inserted into the theatre of 
operations, effectively creating crucible for the continuous evaluation 
and enhancement of technological capabilities.
    Mr. Smith. The DOD S&T Program investment strategy should balance 
the development of (a) technological countermeasures to perceived 
future threats, (b) technologies to create options for U.S. forces, and 
(c) technologies to shape our enemies' options. Could you provide some 
examples of investments you are making in each category and could you 
please discuss your vision for the appropriate distribution of 
investments for each category?
    Dr. Killion. I can only speak for the Army, but examples of Army 
investments in each of these categories are as follows:

    (a) Technological countermeasures to perceived future threats. The 
Army S&T community is investing in active protection systems (APS) to 
protect lighter weight combat vehicles from tank-fired threats. 
Research into APS sensor, interceptor, and guidance technologies is 
ongoing. We are also investing in new technologies such as high energy 
lasers that can address multiple missions such as the defeat rockets, 
artillery and mortars or unmanned aerial systems in order to protect 
our troops in the future. We are pursuing the development of new 
ballistic materials and armor designs, validating associated models 
that predict the fundamental material responses and overall ballistic 
performance, conducting ballistic performance evaluations and 
developing integration and manufacturing techniques to reduce costs and 
overall system weight. These armor designs are based on the projected 
future threats but also are used to address threats currently being 
seen in theater.

    (b) Technologies to create options for U.S. forces. We are 
investing in technologies that create options such as the 
electromagnetic gun which has the potential to increase the range and 
effectiveness of large caliber weapons and directed energy weapons that 
can render enemy sensors and electronics ineffective. In addition, we 
are creating capability that can scale in it's delivered effects based 
on the situation encountered through our investments in non-lethal 
weapon technologies and scaleahle warhead technologies. We are 
exploring nano-technology which holds the promise of new materials for 
use as body armor and to increase performance. These nanostructures are 
assembled into macroscopic systems to produce materials and energetics 
with previously unattainable properties to dramatically enhance soldier 
survivability and weapon lethality.
    (c) Technologies to shape our enemies' options. Perhaps one of the 
more significant game-change technologies is our commitment and 
investment in developing network centric warfare capabilities that help 
us better identify and address the threat, manned-unmanned teaming 
capability that enable the warfighter to extend his area of influence 
within the battlespace while reducing risk to his personal welfare, The 
development of wide area persistent surveillance creates a significant 
capability to modify the enemy's behavior as they are constantly under 
observation, but it creates significant challenges to include the 
sensor systems, real time processing of vast amounts of data, the real 
time interpretation of information for decision-making and challenging 
power and energy requirements to support such demanding systems. 
Efforts in biotechnology research will lead to totally new sensing 
systems, new ways for the rapid processing of data into information, 
the development of novel sense and response systems and biologically 
inspired power and energy solutions for our soldiers.
    With regard to the appropriate distribution of investment across 
these categories, I believe that the majority of our investment should 
be in addressing the perceived/projected threats, as this is a key 
aspect of the Army S&T mission. In this regard, technologies that will 
enhance force protection of our troops are one of our highest 
priorities and largest S&T investment areas. Technologies that create 
options for the US and shape our enemies options are equally weighted 
in my mind--as they are intimately linked in many cases. The 
investments that are made within the S&T community are focused on 
maintaining US dominance as the premier land combat force in the world.
    Mr. Smith. The U.S. Special Operations Command FY09 S&T request is 
around $65 million this year which includes $11 million in a new area 
designated for SOF Information and Broadcast Systems advanced 
Technology.Can you briefly describe how the Special Operations S&T 
requirements fit into the overall DOD S&T planning process? Will we 
continue to see the SOF S&T budget grow to meet their unique mission 
challenges?
    Dr. Killion. SOCOM and SOF S&T do not fall under my authority, 
therefore I am unable to provide a response to your questions 
concerning their planning process or planned growth in their S&T 
budget. I respectfully recommend that this question be redirected to 
SOCOM for response.
    Mr. Smith. Within the next year or so, several defense bases will 
begin closing and various activities will begin re-alignment including 
research and development activities within the defense laboratories. 
One of the greatest impacts of BRAC is loss of talented workforce. 
Certain key folks may not wish to uproot their families to move to 
another state.How will the affects of BRAC (workforce and others 
issues) impact your ability to provide the best capabilities for our 
warfighters? What mechanism have you put in place to minimize the 
potential impact?
    Dr. Killion. As articulated in the December 28, 2007 report to 
Congress, the Army's move of the Communications Electronics Research, 
Development and Engineering Center (CERDEC) to Aberdeen Proving Ground 
greatly enhances operational support to the Global War On Terror (GWOT) 
and other contingency operations by creating a combined Command, 
Control, Communications, Computers, Intelligence, Surveillance, and 
Reconnaissance (C4ISR) technical and research facility with direct and 
valuable links to the Aberdeen Proving Ground (APG) test communities 
and ranges.
    In planning for and implementing the Base Realignment and Closure 
recommendation to close Fort Monmouth, the Army diligently analyzed the 
human resources, facilities, information technology, and relocation 
phasing required to continue supporting the GWOT and other critical 
contingency operations. The Army defined the risks, developed 
strategies to mitigate those risks, and identified imperatives 
necessary to resource those strategies. In particular, the Army is 
reviewing a three pronged approach: a) increase the percentage of 
employees who relocate to APG, MD by maximizing retention and 
relocation incentives and ensure that there is equity between APG and 
relocated employees to minimize employee shift between organizations; 
b) shift more hiring to APG prior to the closure of Fort Monmouth, NJ; 
c) accelerate hiring to backfill vacancies after the C4ISR mission 
moves to APG. With the continued and proactive support and resources 
from the Department of Defense and Congress, the Army will successfully 
execute the relocation from Fort Monmouth to Aberdeen Proving Ground by 
September 15, 2011 with minimum disruptions.
    Mr. Smith. A recent Defense Science Board (DSB) study on the 
Manufacturing Technology program recommended creating a Basic Research 
account for ManTech. The Navy already has a Manufacturing Science 
program. Do you agree with the DSB's recommendation? How would such a 
Basic Research effort within the ManTech program support the program's 
mission?
    Mr. Shaffer. The Defense Science Board (DSB) had ten major 
recommendations and numerous sub-recommendations. The Department has 
implemented many of the recommendations including a new Manufacturing 
Science and Technology (MS&T) program initiated by the Director, 
Defense Research and Engineering, in Fiscal Year 2008 to invest in 
cross-cutting manufacturing processes and provide early 6.3 
manufacturing investment to concurrently mature manufacturing processes 
for emerging technologies. The program complements the Military 
Department ManTech programs, which tend to focus on program/platform 
specific issues. The Department has no current plans to establish a 
dedicated 6.1 Basic Research Manufacturing effort, but we have expanded 
the overall basic research program budget request by over 16% in our 
Fiscal Year 2009 request, and expect that some benefits to long-term 
manufacturing capabilities.
    Mr. Smith. From a Science and Technology (S&T) perspective, which 
do you perceive as the greater threat to national security and to our 
military forces - endemic infectious diseases, such as influenza or 
HIV, or weaponized bio-terror agent, such as Plague? That is, which 
represents the greater threat and the greater S&T challenge?
    Mr. Shaffer. Both foreign endemic diseases of military interest and 
bio-terror agents are significant S&T challenges and the Department 
cannot differentiate one or the other as a greater national security 
threat. We must invest in research addressing both. A strong science 
and technology (S&T) program in surveillance, prevention, diagnosis and 
treatment of infectious agents is critical for addressing ever-present 
(i.e., endemic) and potential (i.e., biowarfare) threats. Developing 
medical countermeasures to either will continue to take the concerted 
effort of the best medical scientists available. Some of these specific 
challenges are: (1) developing surveillance and medical interventions 
when the time course for identification and mitigation of these event/
diseases is unknown or compressed; (2) developing the science base for 
understanding infection and disease processes so that broader acting 
medical countermeasures can be developed (in contrast to chasing the 
`one bug, one drug' infinite continuum), (3) quarantine technology, 
capacity and procedures for unpredictable outbreaks of disease is 
limited; (4) the commercial 'market' for drugs and vaccines to counter 
disease pathogens that are not endemic to the US is minimal until an 
event occurs; and (5) there are significant barriers to executing human 
clinical trials for either threat.
    Mr. Smith. In previous years, Congress has enacted a number of 
pilot demonstration programs to provide more flexibility in the hiring 
practices, management, and conduct of the science and technology 
program in selected DOD agencies and the military department 
laboratories and research, development, and engineering centers. Have 
these authorities been useful? What are some of the challenges with 
implementing these authorities?
    Mr. Shaffer. The pilot demonstration authorities were useful. They 
have permitted the Department to evaluate alternative personnel system 
approaches which include pay banding; simplified classification; 
performance-based compensation; streamlined hiring and staffing 
processes; expanded development programs (sabbaticals and degree 
training); and modified reduction-in-force procedures which take 
performance into account.
    Challenges in implementing these authorities include ensuring open 
communication about the alternative approaches with the workforce and 
workforce representatives; providing comprehensive training for senior 
leaders, supervisors, and staff, ensuring that stakeholders are 
actively involved in the design, development and implementation of the 
program; putting in place comprehensive planning processes for 
implementation, providing mechanisms for assessing status and managing 
risk; and developing an assessment plan which will enable evaluation of 
the effectiveness of the demonstration projects and alternative 
personnel systems.
    Mr. Smith. The Department's missions have expanded to include 
stability operations, humanitarian assistance, reconstruction and other 
activities that touch upon the jurisdiction of other federal agencies. 
Issues that are much broader than the scope of this subcommittee. Mr. 
Shaffer, how are the DOD's S&T efforts-planning, developing, and 
transition of technologies that are supportive of the growing mission 
as I just described collaborated/integrated with other agencies such as 
State, DHS, Justice and others?
    Mr. Shaffer. First, it is important to note that the Office of 
Science and Technology Policy Committee on Homeland and National 
Security has been reinvigorated this summer. This committee is co-
chaired by senior DOD and Department of Homeland Security leaders, and 
is specially chartered to coordinate activities across government 
agencies. Recently, this committee gave its approval to a stability 
operations technology roadmap.
    But we recognize the need to focus specifically on interagency 
collaboration, and have re-chartered the science and technology 
component of the former Office of Force Transformation earlier this 
year to undertake interagency science and technology efforts. This is 
beginning to bear fruit. We will cite just a couple of examples. We are 
nearing completion of a series of interagency workshops focused on how 
we can apply a ``whole of government'' approach to dealing with 
transitional law enforcement operations in a stability and 
reconstruction environment. With DOD, Department of State, Department 
of Homeland Security, and Department of Justice participation, we will 
use the results to identify science and technology needs as well as 
organizational models compatible with our system of government. We have 
undertaken new interagency science and technology efforts as well. In 
conjunction with NASA, we have begun development of a prototype air 
vehicle which will drastically reduce fuel and infrastructure 
requirements needed for aerial logistics missions. With such a vehicle, 
our ability to conduct humanitarian assistance, both at home and 
abroad, would be significantly improved over what is available today.
    Additionally, we have redirected several of our existing programs 
to focus on interagency requirements. For instance, we recently 
completed a successful Caribbean drug interdiction operation in 
conjunction with Department of Homeland Security in which law 
enforcement officers embarked upon a DOD experimental vessel. We also 
recently reached agreement with the Department of Homeland Security to 
cooperatively test and develop small unit command and control 
capabilities in support of border security operations.
    In the areas of stability operations and reconstruction, we hosted 
an interagency workshop in June to look at the breadth of analytical 
tools available to aid reconstruction efforts in Afghanistan, including 
participants from the U.S. Army Corps of Engineers, United States 
Agency for International Development (USAID), U.S. Institute for Peace, 
the State Department, and the U.S. Geological Survey. Finally, we are 
beginning a science and technology development effort in conjunction 
with members of the interagency intelligence community to better 
understand the challenges of multi-platform/multi-sensor intelligence 
collection, fusion, and analysis. As we go forward, we intend to search 
for additional opportunities to collaborate on interagency science and 
technology projects. The results of each of the efforts highlighted 
above--as well as others we undertake in the future--will be available 
to all members of the interagency community for evaluation and 
technology transition in accordance with the unique requirements and 
processes of the individual departments and agencies.
    Mr. Smith. Mr. Shaffer, there has been a proliferation of 
technology transition programs managed within the Office of the 
Secretary of Defense for Science and Technology. For example, the Joint 
Concept Technology Demonstration (JCTD), Joint Experimentation, the 
Defense Acquisition Executive the Quick Reaction Fund, the Combating 
Terrorism Technology Task Force (CTTTF), the Technology Transition 
Initiative, the Foreign Comparative Test Program, and the Defense 
Acquisition Challenge Program. This does not include service specific 
technology transition and rapid acquisition programs. Yet, technology 
transition remains a perpetual challenge for the S&T community

    a. How do you avoid duplication in these programs and why does OSD 
need so many authorities for technology transition efforts?

    b. What do you see as your top two technology transition 
challenges?

    c. Since 2001, many rapid technology development and fielding 
efforts have been put in place across OSD and the military departments. 
What steps have you taken to ensure that lessons learned from these 
rapid processes are being captured and institutionalized, as 
appropriate?

    d. Many of the efforts to rapidly transition technologies to the 
operational community to support the War on Terrorism have resulted in 
both developmental and operational test and evaluation of systems being 
conducted in theater. How is the S&T community collecting feedback from 
theater to ensure the appropriate improvements in capabilities are made 
and to also ensure that we don't continue to field systems with the 
same problems or limitations?

    e. What is your specific role at acquisition milestone decisions, 
with respect to Technology Readiness Assessments? How has this role 
changed in the last 2-3 years or how do you envision it changing in the 
future?

    f. What steps should the S&T community be taking to ensure that 
technologies identified as ``critical'' for major acquisition programs, 
are in fact sufficiently mature at the Systems Design and Demonstration 
(SDD) milestone?

    Mr. Shaffer. In the Department's 2007 Research and Engineering 
Strategic Plan, we highlighted several high-level management 
principles. Among the most prominent was the principle to ``Transition 
Technology to Acquisition Programs and the Warfighters.'' This 
principle--to mature technology for use in acquisition programs and, 
better yet, by operational units and our soldiers, sailors, airman and 
marines--is a guiding principle for the DOD research and engineering 
program. Unfortunately, the business processes in place within the 
federal government and Department sometimes lack the agility or 
flexibility to easily transition technology. This shortfall has been 
highlighted in numerous recent blue-ribbon panels, each of which has 
recommended alternatives to enhance transition. This proliferation of 
studies and recommendations has, I believe, resulted in a proliferation 
of programs to fix parts of the problem. This may or may not be 
appropriate, because the challenge of technology transition is complex 
and we have not identified a ``one size fits all'' solution. 
Consequently, the DOD has generated a number of complementary programs 
to address specific technology transition challenges. We self-generated 
some of these programs, such as the Joint Capabilities Technology 
Demonstration program and the Defense Acquisition Executive program. 
Some of the programs have been congressionally mandated, such as the 
Technology Transition Initiative and the Defense Acquisition Challenge 
Program. By using the different tools of the various programs, we can 
frequently find a more direct path to transition.
    For the most part, we have avoided unintended duplication by 
working to define unique domains, or programmatic characteristics, for 
each program. We will illustrate with an example. Within the Office of 
the Director, Defense Research and Engineering (DDR&E), we generated a 
program in 2003 called the Quick Reaction Special Projects (QRSP) 
Program. We designed this program to demonstrate capabilities rapidly 
within 12 months if possible. This 12 month cycle is important because 
the standard budget process within the DOD is 18-24 months, so QRSP 
works within the budget cycle. QRSP provides the agility needed in a 
world with rapid technology maturation. Within the QRSP, we have two 
complementary projects: the Rapid Reaction Fund (RRF; formerly known as 
the Combating Terrorism Technology Task Force) and Quick Reaction Fund 
(QRF). The Rapid Reaction Fund is used to address ``irregular 
Warfare,'' while the QRF is used to address conventional capabilities. 
In those instances where high priority capability needs overlap, the 
programs can share funding. Both programs are thoroughly vetted with 
the Combatant Commanders, and address real world needs. Because of the 
short time scale and flexibility provided by these programs, they are 
considered as the two highest priority programs in DDR&E. Because we 
have involved the warfighters in the program and both deliver 
demonstrable capabilities, we receive real world feedback from the 
warfighters who assess the technology in a warfighting environment.
    In addition, we are in the process of rechartering the Technology 
Transition Executive Steering Group, made up of Science and Technology 
Acquisition Senior Executives from each service. The oversight from 
this group will also minimize unintended duplication.
    The on-going technology transition programs supplement our routine 
interaction with the acquisition community, an interaction that has 
been strengthened in the past several years. Much of this strengthened 
relationship has occurred because we are now required to provide a 
technology maturity--assessment of critical technology elements in 
conjunction with a milestone B decision. Before a program enters System 
Design and Development, the DDR&E team evaluates the technology 
maturity thereby enhancing transition of matured technologies. This 
process, as it matures, should help ensure we transition mature 
technology.
    Finally, it is important to also recognize that we need to 
continually rationalize the DOD technology transition effort, and have 
created a position to develop and oversee innovative approaches to 
Department-wide transition. This position, the Assistant Deputy Under 
Secretary of Defense for Innovation and Technology Transition, is a 
Senior Executive Service level position created to examine how the 
Department can more effectively transition technology and to provide a 
policy focus to the challenges. The ADUSD (I&TT) interacts on a routine 
basis with the Military Departments through the Technology Transition 
Executive Steering Group, which is made up of senior-level 
representatives from both the S&T and acquisition communities, to 
improve and strengthen the execution of technology transition to meet 
our warfighters' needs through sharing of best practices.
    Effective technology transition has been, and remains, a contact 
sport. The apparent proliferation of programs cited in the question 
merely provides the tools to support the contact. There are challenges, 
and I am not comfortable citing two as the ``top two''. Working in 
tandem with the acquisition and requirements community, we are 
addressing the challenges in a systemic way.
    Mr. Smith. How can the Military Critical Technologies Program hope 
to be relevant if it only conducts its assessments on a three-year 
cycle? For example, how many new technologies are now in use by the 
mainline U.S. military that were not in use three years ago?
    Mr. Shaffer. Since the pace of global technology development is 
accelerating, the Department has changed its Military Critical 
Technologies List (MCTL) process over the last two years to one of 
essentially continuous updating and publishing. As a basic management 
goal, all sections of the list are now updated at least every two 
years, with a desired goal of every year. This was enabled by the 
adoption of an on-line, wiki-based environment for use by our 
Technology Working Group (TWG) development teams, and the introduction 
of on-line publishing of the updated list sections via the Defense 
Technical Information Center (DTIC.) The rate of progress varies 
greatly in differing areas of technology, and thus a single time 
requirement is not adequate or reasonable for all technologies. 
Significant developments in the technology base of a given area can now 
trigger revisions regardless of the age of the existing sections, and 
publishing of revised sections is accomplished whenever changes are 
staffed and complete, rather than on an annual basis as was the 
previous practice.
    Mr. Smith. What is the role of the International Technology 
Security (ITS) office in providing input to the Office of the Secretary 
of Defense for Policy and International Security Policy for the CFIUS 
(Committee on Foreign Investment in the United States) process? How is 
that contrasted with the role of the Deputy Under Secretary of Defense 
for Science & Technology? How accurate can such input be if it's 
provided on the basis of a process with a 3-year update cycle?
    Mr. Shaffer. As a part of the Office of the Director of Defense 
Research & Engineering (DDR&E), ITS reviews and comments on all CFIUS 
cases, via coordination accomplished within the office of the Under 
Secretary of Defense for Acquisitions, Technology and Logistics by the 
office of the Deputy Under Secretary of Defense for Industrial Policy. 
Individual cases are reviewed by ITS for technology listed on the MCTL, 
and where listed technologies exist, ITS Technology Working Group 
subject matter experts can comment on the potential need for protection 
of technologies. Subject matter experts from the Office of the Deputy 
Under Secretary of Defense for Science & Technology, along with other 
appropriate organizations, also comment directly to the Office of the 
Deputy Under Secretary of Defense for Industrial Policy (IP).
    Mr. Smith. How does the ITS office's role differ from the role of 
the Office of the Deputy Under Secretary of Defense for Industrial 
Policy (DUSD(Industrial Policy))?
    Mr. Shaffer. ITS, in its role constructing the MCTL, is charged 
with identifying specific technologies of military criticality to 
inform the Commerce Department's dual-use export control process. This 
task is narrowly focused, and is centered on protecting against the 
spread of technologies which may be used to harm the US or American 
interests. Industrial Policy's (IP) focus is much broader. The IP 
mission is to sustain an environment that ensures the industrial base 
on which the Department of Defense (DOD) depends is reliable, cost-
effective, and sufficient to meet DOD requirements. It does this by (1) 
monitoring industry readiness, competitiveness, ability to innovate, 
and financial stability; (2) ensuring DOD research and development, 
acquisition, and logistics decisions promote innovation, competition, 
military readiness, and national security; and (3) leveraging statutory 
processes (for example, the Defense Priorities and Allocations System, 
Hart-Scott-Rodino antitrust evaluations, Exon-Florio Committee on 
Foreign Investment in the United States evaluations) to promote 
innovation, competition, military readiness, and national security.
    Mr. Smith. In complex irregular warfare operations, technological 
superiority (big platforms) may not be an effective force multiplier. 
Instead, ``soft'' skills, such as languages, cultural awareness, 
information operations/psychological operations, and civil affairs may 
be required. a. How can technology help the U.S. military rapidly 
acquire the ``soft'' skills it needs to be effective in irregular 
warfare operations? b. How does technological superiority fit within 
today's threat environment?
    Mr. Shaffer. In his November 26, 2007 speech at Kansas State 
University, Secretary Gates called for a paradigm shift, away from 
solely military operations, more towards the ``. . . civilian 
instruments of National Security diplomacy, strategic communications, 
foreign assistance, civic action and economic reconstruction and 
development.'' In response to the direction of the Secretary, the 
department has increased focus on ``Soft Power.'' The Science and 
Technology (S&T) community is leading with changes in investment 
priorities.
    Technology superiority remains a center of gravity in current 
conflicts and will likely continue to do so in the future. However, the 
construct for technology superiority is expanding to include domains 
like sensors, information fusion, and human, social, culture and 
behavioral modeling. The Department's S&T program has expanded in each 
of these areas. The concept of Irregular Warfare describes conflicts 
fought not with large military formations, but with small numbers of 
forces in conjunction with force multipliers that can only come through 
technological innovation. Today, with the priority given to ``Soft 
Power,'' technological investments are being made that deliver greater 
capability to the warfighter in the areas noted by the Secretary above. 
The Director, Defense Research and Engineering (DDR&E), established a 
multi-year ``Human, Social, Cultural and Behavior'' initiative and 
supporting roadmap. Fiscal Year 2008 was the first year of this 
initiative.
    Additionally, DDR&E is charged with developing innovative 
capabilities for the warfighter in a non-traditional, rapid manner and 
has been investing in ``Soft Power'' technologies at an ever-increasing 
rate. In June of this year, we sponsored a workshop focused on the 
reconstruction and stability of Afghanistan, with invitees such as 
Department of State (DoS), United States Agency for International 
Development (USAID), and Gallup. The rationale was to examine how DOD, 
DOS, Non-Governmental Organizations, and others can share the 
requirements of ``Soft Power'' and leverage resources appropriately. 
DDR&E also sponsors a Strategic Multi-Layer Assessment (SMA) program. 
The SMA program is charged with bringing together social scientists to 
study specific problem areas, not from a military perspective, but from 
one that brings together personnel with expertise in economics, 
sociology, psychology, history, culture, and other areas to reframe the 
problem set and recommend innovative actions that affect areas often 
disregarded in traditional ``hard power'' projection scenarios.
    Mr. Smith. The DOD Science and Technology (S&T) Program is 
chartered, in part, to ensure the Department avoids technological 
surprise. Yet some may argue that DOD has been technologically 
surprised by IEDs, EFPs, and cyber warfare. What efforts does your 
organization undertake to avoid technological surprise? How are these 
different than they were five years ago?
    Mr. Shaffer. A key mission of the DOD S&T program is to minimize 
technology surprise to the DOD, and balance with other development 
efforts. As such, the department made continued strides since 2003 (5 
years ago) when the term disruptive technology was often followed by 
recitation of the three emerging technology pillars of nano-technology, 
bio-technology and information technology. We have matured our thinking 
about disruptive technologies, and now include application of 
commercial capabilities.
    At a macro level, starling in 2002 the Department took action to 
further reduce the risk of technology surprise by putting in place 
processes, initiatives and information technology solutions to better 
integrate the intelligence community into the DOD S&T planning process 
and enable rapid transition of technology where needed to short circuit 
emerging technology risks. We have used quick reaction funds to allow 
us to rapidly understand newer technology areas and matured technology 
intelligence analysis. Finally we are expanding our footprint in global 
technology ``prospecting'' by expanding global outreach. All totaled, 
we are spending more time and effort to understand foreign technology 
than we did five years ago.
    Mr. Smith. The DOD S&T Program investment strategy should balance 
the development of (a) technological countermeasures to perceived 
future threats, (b) technologies to create options for U.S. forces, and 
(c) technologies to shape our enemies' options. Could you provide some 
examples of investments you are making in each category and could you 
please discuss your vision for the appropriate distribution of 
investments for each category?
    Mr. Shaffer. DOD's Science and Technology (S&T) program makes 
substantial investments in each of these categories and seeks to 
balance our program across all three. Examples of countermeasures 
include research into cyber-security to protect networks and 
information system infrastructure from attack and compromise, research 
on stand-off detection and neutralization of nuclear materials, and 
research on active protection systems to engage rockets and missiles 
fired at ground vehicles.
    Technology to provide options include research in hypersonics to 
enable very rapid interdiction at great distances, research on high 
energy lasers for platform defense, and research in compact, portable 
electrical power sources to enable agile and sustainable operations by 
dismounted forces.
    In the third category, the Department is investing in research in 
biomedical sciences to develop countermeasures for contagious diseases 
and toxins, thereby denying terrorists one of their most threatening 
attack vectors, and research in energetic materials for penetration of 
hard and deeply buried targets to put an adversary's underground 
facilities at risk.
    In an uncertain world, a balanced research investment portfolio 
balances efforts both in these categories and in other areas such as 
wounded warrior care, current threats (e.g., IEDs), and sustaining 
foundational sciences. DOD's S&T enterprise conducts annual strategic 
reviews of the investment portfolio to align investment priorities with 
technological opportunities and operational needs, either current or 
projected. In addition, we have increased the emphasis on technology 
intelligence analysis to better inform the balance of threats, options 
for U.S., and options to share potential adversary options.
    Mr. Smith. The United States Special Operations Command (USSOCOM) 
Fiscal Year 2009 (FY2009) Science and Technology (S&T) request is 
around $65 million this year, which includes $11 million in a new area 
designated for Special Operations Forces (SOF) Information and 
Broadcast Systems Advanced Technology. Can you briefly describe how the 
SOF S&T requirements fit into the overall Department of Defense S&T 
planning process? Will we continue to see the SOF S&T budget grow to 
meet their unique mission challenges?
    Mr. Shaffer. The SOF Information and Broadcast Systems Advanced 
Technology program element (1160472BB) was established in Fiscal Year 
2009 to separately capture S&T efforts related to information and 
broadcast technology. This program element contains the Psychological 
Operations (PSYOP) Global Reach (PGR) and PSYOP Modernization programs. 
Beginning in Fiscal Year 2009, existing PGR Advanced Concept Technology 
Development (ACTD) resources ($4.970 million) were realigned from 
Program Element 1160402BB, Special Operations Advanced Technology 
Development. The additional $6.020 million for PSYOP Modernization was 
resourced through internal funding realignments during the Command's 
budget process.
    The SOF S&T process is fully integrated with the overall DOD S&T 
program. Representatives from USSOCOM are integral players in the 
annual comprehensive S&T review process, whereby all components with 
S&T investment brief their requirements and plan to address the 
capability needs. This review occurs each year in January as a start to 
the DOD budget development process.
    USSOCOM's S&T strategy is to selectively invest and leverage 
available resources with the Military Departments and other agency 
laboratories, academia, and industry for the purpose of maximizing SOF 
capabilities. USSOCOM's involvement in several ACTDs and Joint 
Capability Technology Demonstrations allows USSOCOM to leverage the 
resources of other organizations to create robust opportunities for 
evaluating and transforming mature technologies in a way that the 
command could not otherwise afford within its limited S&T budget. One 
example of partnership success was close coordination between USSOCOM 
and the Director, Defense Research & Engineering on tagging, tracking, 
and locating technology investments.
    Mr. Smith. In complex irregular warfare operations, technological 
superiority (big platforms) may not be an effective force multiplier. 
Instead, ``soft'' skills, such as languages, cultural awareness, 
information operations/psychological operations, and civil affairs may 
be required. a. How can technology help the U.S. military rapidly 
acquire the ``soft'' skills it needs to be effective in irregular 
warfare operations? b. How does technological superiority fit within 
today's threat environment?
    Dr. Tether. I think the DOD has become more aware of the need for 
what you term ``soft skills'' in response to the irregular warfare and 
operations in Iraq and Afghanistan. People in all the Services and OSD 
are rethinking what is needed to succeed in those situations.
    But I would say that technology can help meet those challenges. 
It's worth remembering that our technological capabilities are one of 
our asymmetric advantages.
    Much of what we work on is aimed at getting better information 
about the enemy and then acting more quickly and precisely. Better 
information and decision making will help make our use of force, when 
needed, more subtle and less likely to cause collateral damage.
    And, we have a number of programs aimed directly at soft skills:

      <bullet> Our array of language translation programs will improve 
our understanding of what is going on throughout a society and allow us 
to work better with the locals. We made a language training program 
available that includes gestures and social conventions to reduce what 
might be called ``cultural friction.''

      <bullet> Our ASSIST program is helping our troops on the ground 
better gather, store and share information about the neighborhoods they 
work in. This ``cop on the beat'' type of information will improve our 
understanding and partnerships with locals.

      <bullet> Our Integrated Crisis Early Warning System (ICEWS) 
program is working to create a system that not only helps forecast 
instability in a society but provides commanders with diplomatic, 
economic or military options for preventing or reducing the crisis. 
Softer options are an integral part of it.

    Mr. Smith. The DOD S&T Program is chartered, in part, to ensure the 
Department avoids technological surprise. Yet some may argue that DOD 
has been technologically surprised by IEDs, EFPs, and cyberwarfare. 
What efforts does your organization undertake to avoid technological 
surprise? How are these different than they were five years ago?
    Dr. Tether. I don't agree that those items constitute technological 
surprises to DOD. Cyber warfare is something DARPA and others in DOD 
have been aware of and working to counter for many years. Similarly, 
EFPs are a technology DOD was aware of before they were used in Iraq. 
IEDs are an interesting case. But even here DOD had concepts of using 
smart mines which were along side the road and triggered by vehicles 
passing by.
    On the other hand, IEDs are definitely an operational surprise in 
both their effectiveness and in constraining freedom of movement. The 
technology needed for IEDs is fairly simple and commonly available--
which is partly why they are so difficult to counter.
    But you are correct that DARPA's mission is to prevent the 
technological surprise of the US. We have also learned that the best 
way to prevent surprise is to be constantly creating it. The key to 
this is to constantly search the technological frontier for new ideas 
and discoveries. The best way to do that is to continually bring in new 
people who are leaders in their field, know what is on the cutting 
edge, and have good ideas on how to use new discoveries. While 
information on technological and scientific developments is helpful, 
the real way DARPA stays on the technological frontier is through its 
policy of rotating program managers. Knowledgeable, creative, 
entrepreneurial people prevent technological surprise far better than 
just information.
    Our policy of rotating personnel also makes it easy for us to 
change focus and direction. If we want to go in a new direction, then 
we start hiring people in that area as other people leave. And, in the 
last several years, we have become more interested in countering 
asymmetric threats.
    Finally, there are plenty of good ideas overseas too. Part of what 
I've done as Director is travel to places like India, Israel, 
Australia, Sweden and Singapore to understand the technical 
developments, capabilities and opportunities in those nations. 
Preventing and creating technological surprise requires an awareness of 
what might be happening around the globe.
    Mr. Smith. The DOD S&T Program investment strategy should balance 
the development of (a) technological countermeasures to perceived 
future threats, (b) technologies to create options for U.S. forces, and 
(c) technologies to shape our enemies' options. Could you provide some 
examples of investments you are making in each category and could you 
please discuss your vision for the appropriate distribution of 
investments for each category?
    Dr. Tether. In terms of countermeasures, perhaps our most obvious 
work is in biological warfare defense. If we succeed in finding ways to 
rapidly develop and manufacture therapies for any pathogen, including 
entirely new ones, it would neutralize or at least enormously limit the 
value of any biological attack. In our Space strategic thrust we 
developing technology to better understand what threats might be 
present on-orbit and to protect our space assets. We are looking at 
ways to detect and characterize underground structures and are very 
active in the area of cyber security. These are just a sample.
    In terms of creating new options for US forces, our research in 
Advanced Manned and Unmanned systems promises a variety of new 
platforms to carry out missions in new ways, many of them autonomously. 
In our Space thrust, Orbital Express demonstrated the autonomous 
refueling of satellites on-orbit. Our research in Robust, Secure Self-
Forming Networks aims to let DOD reach the full potential of network-
centric operations, and we continue to improve our ability to find, 
track and destroy elusive targets. The wellspring for many of these new 
capabilities and option is our long-standing research in core 
technologies like materials and information technology--the improved 
technologies that allow us to create systems.
    Because armed conflict requires at least two parties, all of these 
options shape our potential enemy's options as well, hopefully in such 
a way that they are dissuaded from a fight. Reducing our threats 
reduces their options, whereas new options for us increases the threats 
to them and indirectly reduces their options. But, as history shows, we 
should expect threats and countermeasures to evolve with each other 
over time.
    We have no particular rules of thumb for such investments since we 
really don't pre-allocate funds but respond to ideas and count up the 
resources later. The ideas we fund however depend on the particular 
strategic environment and circumstances at that time. What exactly are 
the threats you face? What are the opportunities that you might seize? 
One cannot decide what to invest in without considering those factors 
and weighing them against each other--and they are always changing.
    Mr. Smith. The U.S. Special Operations Command FY09 S&T request is 
around $65 million this year which includes $11 million in a new area 
designated for SOF Information and Broadcast Systems advanced 
Technology.Can you briefly describe how the Special Operations S&T 
requirements fit into the overall DOD S&T planning process? Will we 
continue to see the SOF S&T budget grow to meet their unique mission 
challenges?
    Dr. Tether. I can't really speak to the Special Operations 
Command's (USSOCOM) budget and planning process, but I would like to 
highlight our excellent on-going partnership with USSOCOM.
    Over the past several years, DARPA has established a ``special 
relationship'' with USSOCOM. Why? I regard them as DARPA's test lab, 
where we can test new technology and hear what works and what doesn't 
from some of the most sophisticated operators in the DOD. Working with 
highly demanding ``first adopters'' is one the best ways to ensure your 
new technologies are indeed revolutionary. We get to hear their most 
pressing challenges, to excite our researchers to move into new areas 
and explore new solutions. On the other hand, we give then an 
opportunity to get insight into future technologies and even try some 
of them.
    DARPA and USSOCOM complement each other well; our missions, 
capabilities and even our cultures of being fast and flexible are an 
excellent fit. DARPA has had a full-time representative at USSOCOM in 
Tampa for 6 years. I sent her there to make sure USSOCOM hears about 
our technologies, has the opportunity to test and evaluate them, and 
can cherry-pick what best fits their needs. We benefit by their testing 
and use of our prototypes; when we solve USSOCOM's challenges, we often 
meet those for the services as well. We also benefit when she brings 
back difficult challenges for our researchers at DARPA. It's been very 
fruitful for all of us.
    Mr. Smith. From an S&T perspective, which do you perceive as the 
greater threat to national security and to our military forces--endemic 
infectious diseases, such as influenza or HIV, or weaponized bio-terror 
agent, such as Plague? That is, which represents the greater threat and 
the greater S&T challenge?
    Dr. Tether. Clearly, endemic infectious diseases can threaten our 
military effectiveness. There are many examples from history when 
illnesses like dysentery or malaria have put entire fighting units out 
of action. Some of what DARPA has been working on in our Bio-Revolution 
strategic thrust is applicable to preventing and treating endemic 
diseases. Our Rapid Vaccine Assessment program aims to rapidly identify 
effective vaccines; the Accelerated Manufacturing of Pharmaceuticals 
program is pursuing new technologies to manufacture large quantities of 
therapeutics against any pathogen within 12 weeks. Another DARPA 
program worked on preventing disabling diarrheal diseases.
    As part of DOD, our primary focus must be on militarily relevant 
threats. We must protect our troops against threats unique to the 
military and effectively treat them when needed. Our troops face 
threats from weaponized bio-agents and they deploy to regions where 
rare tropical diseases can be commonplace, so we must protect them 
against both exotic natural pathogens and those made highly virulent by 
our adversaries. The DOD must address those military specific threats, 
as no other organization has the responsibility or incentive to do so. 
Conversely, there are many other organizations, public and private, 
across the world, whose mission or market opportunity is to fight 
commonly occurring natural infectious disease. For example, NIH and 
pharmaceutical companies have either the mission or market opportunity 
to fight those common diseases. But for weaponized bio-agents and 
exotic diseases that our troops might confront, DOD must solve the 
problems. It's no one else's mission and there is not enough on-going 
market for most of the drugs needed to keep private firms interested.
    Mr. Smith. In previous years, Congress has enacted a number of 
pilot demonstration programs to provide more flexibility in the hiring 
practices, management, and conduct of the science and technology 
program in selected DOD agencies and the military department 
laboratories and research, development, and engineering centers. Have 
these authorities been useful? What are some of the challenges with 
implementing these authorities?
    Dr. Tether. These authorities have been extremely useful and are 
absolutely invaluable to us. We strongly support the flexible hiring 
authorities DARPA has been using and their continuation.
    The lifeblood of DARPA is new ideas, and the best way to get new 
ideas is to bring in new people. This requires the flexibility to 
quickly hire great people with great ideas by offering competitive 
compensation. Without this kind of flexible hiring authority, DARPA's 
access to new people and new ideas would quickly be greatly diminished.
    The landmark authority in this area for us was the ``Section 1101'' 
authority given to DARPA in the FY 99 National Defense Authorization 
Act and subsequently extended to other agencies; this authority expires 
in Sept 2011. Section 1101 was the model for the ``Highly Qualified 
Experts (HQE)'' authority (5 USC 9903) permanently given to the entire 
DOD as part of the National Security Personnel System. DARPA has used 
both these authorities extensively, but now emphasizes using the HQE 
authority.
    The great difficulty in implementing these authorities, 
particularly as they have become more available throughout the DOD, is 
resisting the constant temptation to make them like the standard 
system. At first, these authorities stand out because, by design, they 
don't have as many of the rules, restrictions, and processes as the 
standard system. That makes some administrators uncomfortable and the 
natural inclination of large organizations will be to think, ``Well 
this new authority doesn't have this process or rule. We should add 
that back in as a precaution.'' And a little while later, another rule 
or process is added back and then another and another until the new 
authority is largely encumbered with the same rules and processes you 
were originally trying to avoid. Resisting these ``improvements'' 
requires being constantly on-guard against them, because they each tend 
to be little things but they add up over time.
    Congress's continued support for these authorities and their 
streamlined implementation is a big help to DARPA.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. ELLSWORTH
    Mr. Ellsworth. I would like to commend the Department of Defense on 
the comprehensive report recently delivered to the House and Senate 
Armed Services Committees addressing the concerns of the National 
Research Council Committees report on Manufacturing Trends in Printed 
Circuit Board Technology. DOD suggested establishing Executive Agent 
oversight by the Navy through NSWC Crane Division for Printed Circuit 
Board Technology to ensure that the recommended actions are executed so 
to sustain a robust domestic manufacturing capability. This bold 
approach should help insure the latest technology be available to 
trusted U.S. manufacturing who can deliver the warfighter mission 
critical technologies. This report addresses technology (Research & 
Development), legacy system support, supply chain management/
vulnerabilitics and establishing a competing network of shops that can 
be trusted to manufacture printed circuit boards for secure defense 
systems. With many manufactures taking their technologies overseas as a 
result of the global environment what additional actions are being 
taken to protect critical needed military technologies and prevent 
potential defense system vulnerabilities?
    Admiral Landay. Protection of critical military technologies is 
being addressed under the Militarily Critical Technologies Program 
(MCTP) process managed by the Department of Defense, the Arms Control 
Act (22 USC 2778 and 2794), and International Traffic in Arms 
Regulations (ITAR) managed by the Department of State and the Defense 
Production Act (PL 81-774).
    Mr. Ellsworth. I would like to commend the Department of Defense on 
the comprehensive report recently delivered to the House and Senate 
Armed Services Committees addressing the concerns of the National 
Research Council Committees report on Manufacturing Trends in Printed 
Circuit Board Technology. DOD suggested establishing Executive Agent 
oversight by the Navy through NSWC Crane Division for Printed Circuit 
Board Technology to ensure that the recommended actions are executed so 
to sustain a robust domestic manufacturing capability. This bold 
approach should help insure the latest technology be available to 
trusted U.S. manufacturing who can deliver the warfighter mission 
critical technologies.This report addresses technology (Research & 
Development), legacy system support, supply chain management/
vulnerabilities and establishing a competing network of shops that can 
be trusted to manufacture printed circuit boards for secure defense 
systems. With many manufactures taking their technologies overseas as a 
result of the global environment what additional actions are being 
taken to protect critical needed military technologies and prevent 
potential defense system vulnerabilities?
    Dr. Tether. In response to the concerns you note, we began our 
``TRUST in Integrated Circuits'' Program in late 2007. The goal of the 
program is to ensure the trustworthiness of ICs regardless of where 
they are designed or manufactured. Of particular concern are the rapid 
movement of both design and fabrication offshore.
    The TRUST program is seeking ways to answer three basic questions 
about integrated circuits that might be purchased from a variety of 
places. First, determining if malicious features have been inserted 
during the design of Application Specific Integrated Circuits (ASIC). 
Second, determining if malicious features have been inserted during the 
fabrication of ASICs. And, third, determining if malicious features 
have been inserted during the loading of Field Programmable Gate Arrays 
(FPGA). These issues have never been addressed before in a 
comprehensive manner, and are at the forefront research in this area.
    So far we have assembled a strong team of defense contractors, 
commercial IC designers, small businesses, commercial IC tool 
developers, leading FPGA vendors and academics all focused on bring 
innovative solutions to solving the basic issues defined above. These 
teams have already shown impressive preliminary results to many of the 
research challenges.

                                  <all>

</pre></body></html>
